<html>
<title> - OVERSIGHT OF THE NATIONAL PARK SERVICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                 OVERSIGHT OF THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2016

                               __________

                           Serial No. 114-73

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-193 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
           Bill McGrath, Interior Subcommittee Staff Director
              Melissa Beaumont, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 14, 2016....................................     1

                               WITNESSES

The Hon. Jonathan Jarvis, Director, National Park Service, U.S. 
  Department of the Interior
    Oral Statement...............................................     5
    Written Statement............................................     7
Ms. Mary Kendall, Deputy Inspector General, Office of the 
  Inspector General, U.S. Department of the Interior
    Oral Statement...............................................    10
    Written Statement............................................    12

                                APPENDIX

RESPONSE Director Jarvis- QFRs...................................    54
 
                 OVERSIGHT OF THE NATIONAL PARK SERVICE

                              ----------                              


                         Tuesday, June 14, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m. In Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Massie, Meadows, Buck, Blum, Hice, 
Carter, Grothman, Hurd, Palmer, Cummings, Maloney, Norton, 
Lynch, Cooper, Connolly, Cartwright, Kelly, Lawrence, Watson 
Coleman, Plaskett, DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    And without objection, the chair is authorized to declare a 
recess at any time.
    We're going to have a hearing today about the oversight of 
the National Park Service. 2016 represents 100 years since the 
Park Service was founded. It should be a milestone for the Park 
Service, but we instead find an agency in crisis.
    We have a lot of good, hard-working people who do a good 
service for this Nation. They serve. The public is attending 
the parks at record numbers, but we're still having problems. 
We should be working to increase the visitation and providing 
recreational opportunities to the American people.
    The mission of the National Park Service is to, ``preserve 
unimpaired the natural and cultural resources and values of the 
National Park Service--Park System for the enjoyment, 
education, and inspiration of this and future generations.'' 
But that does not work when you have so many multiple cases of 
serious, longstanding employee misconduct that is distracting 
the agency from its mission.
    There is no doubt that when you hire tens of thousands of 
people to work at the Park Service, there are going to be some 
bad apples, and those bad apples are going to cause untold 
disruption and heartache to a lot of people. But if they're not 
dealt with in a swift manner, if they're not dealt with 
appropriately, the problem becomes worse. And that is the 
situation, at least from my vantage point, that I see.
    During the last few months, the Department of the 
Interior's inspector general has issued numerous reports 
highlighting how the agency is failing. Those reports reveal 
the Park Service is failing to protect its employees, in 
particular, from a rash of sexual harassment. Even worse, when 
the employees suffer harassment, they are discouraged by 
management from reporting it and sometimes even retaliated 
against.
    Just yesterday, the inspector general released yet another 
report of sexual harassment showing a pattern of this behavior 
in yet another park, the Canaveral National Seashore. Across 
the country, sexual harassment at the Grand Canyon River 
District was so bad it took a letter from 13 victims--13 
victims--directly to the Secretary of the Interior before any 
action was taken. Allegedly, this behavior had been going on 
for about a decade.
    Unfortunately, it doesn't stop there. The superintendent of 
the Grand Canyon himself, David Uberuaga, had a history of 
inappropriate behavior. In 2008, the inspector general 
determined that Mr. Uberuaga unethically profited on the sale 
of land to a park concessionaire who he oversaw. He was also 
found to have made misleading statements related to the sale. 
At the time, his supervisor was then Superintendent Jarvis, who 
decided that a letter of reprimand was enough of a punishment, 
just a letter. Sold this home for three times the value to 
somebody who was doing business with the Park Service, and a 
letter was the reprimand.
    When the facts came to light, once again, Director Jarvis 
was there to protect his friend. Instead of firing or doing 
some negative repercussions, he offered him a cushy job in a 
position in Washington, D.C.
    The Service has also poorly managed its Equal Employment 
Opportunity program. For over a decade, the Service has failed 
to meet its EEOC requirements. Claims can take years to 
process, and the Service has consistently failed to maintain a 
functional EEO program. In the case of the Grand Canyon, it has 
taken more than 2 years to finalize claims of retaliation from 
whistleblowers who reported harassment, 2 years. Two years. 
We're seeing how a disregard for the EEO process leads to a 
culture that tolerates sexual harassment and retaliation. Those 
failures are multiplied by the Park Service's and, in 
particular, Director Jarvis' failure to hold management 
accountable for these transgressions.
    The Service is also failing to adequately oversee its 
contracts and, hopefully, we'll get into that as well. But 
perhaps most troubling is the Service suffers from failures to 
maintain ethical standards at the highest levels. Director 
Jarvis, who's appearing before us today, was removed from 
overseeing the Service's ethics program due to his own ethical 
failures. Director Jarvis failed to get a book deal approved by 
the ethics office, lied to the Secretary of the Interior, and 
afterwards tried to cover up his tracks. When the person in 
charge isn't following the rules, we can't expect anybody at 
the agency as well.
    Something needs to change and it needs to change fast. We 
can't keep continuing to turn a blind eye to misconduct or 
discourage employees from reporting misconduct. Employee 
misconduct erodes American's faith in the government. It 
destroys morale for the vast majority of employees who are hard 
working, they're dedicated, they abide by the rules, and they 
should not have to go to work in a hostile environment. And 
when they don't sense that the management has their back, that 
they're going to take care of them, they're going to watch 
after them, and that they will hold the management responsible, 
it creates a culture that is hostile, and it should not be 
tolerated.
    There are ethical problems. There are backlogs of projects. 
There's lack of plans to deal with these backlogs, 
inconsistency and enforcement of the laws and rules, and these 
are just some of the things that plague the Park Service, and 
that's why we're having the hearing today.
    I appreciate the witnesses for being here. I yield back the 
balance of my time.
    Chairman Chaffetz. I now recognize the ranking member, Mr. 
Cummings, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today's hearing involves a variety of allegations at the 
National Park Service, unfortunately, spanning several years. 
And I want to thank our witnesses for being here today, 
including the National Park director, Jonathan Jarvis, and the 
Deputy Inspector General Mary Kendall, whose office has issued 
many of the reports we will be discussing today. For example, 
the Inspector General's Office has identified an instance of 
contract steering at the Denver Service Center, the 
unauthorized purchase of automatic weapons at the Mojave 
National Preserve, and the improper use of government housing 
at Yellowstone National Park.
    As a result of the inspector general's work, we also 
learned that Director Jarvis violated Federal ethics rules when 
he wrote and published a book without clearing it through the 
department's ethics office. Although he does not appear to have 
benefited financially, he showed contempt for the government's 
ethics rules when he told the Inspector General's Office that 
he probably would do the same thing again. That is amazing that 
he would do it again today because he has, ``always pushed the 
envelope.''
    You know, the chairman talked about morale. He talked about 
the public's confidence in government. That kind of attitude is 
the very thing that leads to low morale. It leads to a lack of 
confidence by the public. And so as a result, he--the director 
has now been stripped of his authority over at the National 
Park Service and is undergoing mandatory ethics training 
himself right now.
    Most troubling of all, however, are the reports from the 
Inspector General's Office that details, and I quote--and this 
is very upsetting--and ``a long pattern of sexual harassment 
and hostile work environment.'' at the Grand Canyon River 
District. The Grand Canyon's former superintendent received a 
report in 2013 documenting multiple allegations of sexual 
harassment, but that report did not determine whether further 
investigations was warranted or whether disciplinary action 
should be pursued.
    A year later, 13 current and former employees sent their 
allegations of abusive behavior to the Secretary of the 
Interior. The secretary referred these allegations to the 
inspector general for investigation, and the Inspector 
General's Office identified 22--22--other individuals who, 
``reported experiencing or witnessing sexual harassment and 
hostile work environments.'' The Inspector General's Office 
also found that previous reports of sexual harassment, ``were 
not properly investigated or reported.''
    In addition, within the last few days, the Inspector 
General's Office issued a new report detailing, ``a pattern of 
sexual harassment,'' against three female employees by a law 
enforcement supervisor at the Canaveral National Seashore.
    These reports, obviously, raise very serious issues. Women 
have the right to work anywhere, including our national parks, 
without fear that they may be harassed by fellow employees or 
ignored or even retaliated against by managers when they report 
these abuses.
    The Park Service's Equal Employment Opportunity program, 
the program directly responsible for handling complaints of 
harassment and retaliation, does not meet some of the most 
basic standards of a model program. These reports demonstrate 
how critical it is that the Senate pass my bill, the Federal 
Employee Antidiscrimination Act, which Chairman Chaffetz 
cosponsored and which passed the House by a vote of 403 to 
nothing.
    Finally, I want to highlight one more issue that needs 
urgent attention, and that is the funding for the 
rehabilitation of the Arlington Memorial Bridge, which was 
built in 1932 across the Potomac River to connect the Lincoln 
Memorial and the Arlington National Cemetery. Unfortunately, an 
inspection in February found that the bridge has severely 
deteriorated. If a complete overhaul does not begin by 2019, 
the bridge is slated to be shut down within 5 years.
    Rehabilitating the bridge is estimated to cost $250 
million, while the National Park Service's entire 
transportation budget for 2016 is $268 million. This is an 
issue that Congress needs to address. And I hope our witnesses 
here today will be able to discuss this as well.
    With that, Mr. Chairman, I anxiously look forward to the 
testimony, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    We'll now recognize our witnesses, starting with Mr. Jon 
Jarvis, the director of the National Park Service at the United 
States Department of the Interior. We also have Ms. Mary 
Kendall. She's the deputy inspector general of the Office of 
the Inspector General at the United States Department of the 
Interior.
    We welcome you both. Pursuant to committee rules, all 
witnesses are to be sworn before they testify. If you'll please 
rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that each of the witnesses answered 
in the affirmative.
    We have your written statements, but in order to allow time 
for vibrant discussion today, we'd appreciate it if you would 
limit your oral testimony to 5 minutes. And, again, your entire 
written statement will be made part of the record.
    Director Jarvis, you're now recognized for 5 minutes.

                       WITNESS STATEMENTS

             STATEMENT OF THE HON. JONATHAN JARVIS

    Mr. Jarvis. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. I'm here today to 
discuss oversight of the National Park Service. I'll summarize 
my written statements and ask that the complete statement be 
included in the record.
    The National Park Service manages many of our Nation's most 
iconic and beloved landscapes, historic sites, and numerous 
programs and places that offer the American public access to 
open space and preserve our history and culture. We are seeing 
record-breaking visitation, more than 300 million last year, 
and the resulting economic activity created by the parks top 16 
billion. We're accomplishing all of this on an annual budget 
that is less than the city of Austin, Texas.
    This year, we are commemorating our 100th anniversary of 
the National Park Service, and we are asking more of our 
employees than ever before as we use this milestone to promote 
all the work we do to inspire new, younger, more diverse 
audiences.
    The national parks are supported and loved by the American 
public because they are well managed, protected, interpreted, 
and maintained by a professional workforce, employees who take 
great pride in their work and hold themselves to high standards 
of conduct. But we are an organization of human beings. By our 
very nature, we make mistakes individually and collectively. We 
can't stop all wrongdoing, but when we see improper situations, 
we can respond thoughtfully to implement changes and keep it 
from happening again.
    I would like to emphasize that the vast majority of the 
National Park Service's 22,000 employees conduct themselves 
with great integrity and passion for their work. This makes it 
all the more disappointing when we find mistakes and wrongdoing 
in our ranks, and sometimes those mistakes happen at the top.
    Last year, I wrote a book to celebrate the National Park 
Service centennial. My goal was to inspire and engage more 
Americans in our national parks. I wrote this book in my 
personal capacity and directed that any book proceeds benefit 
the NPS through the nonprofit publisher of Eastern National and 
the congressionally established National Park Foundation. I 
donated the copyright to the NPF and received no personal 
benefit from the sales of the book. That was never my goal. 
However, I wrote that book without appropriate appreciation and 
regard for my responsibility to follow established processes, 
including consulting the department's ethics office.
    As a result of my actions, I received formal reprimand and 
am actively participating in monthly ethics training. 
Additionally, my duties as the National Park Service ethics 
officer have been removed and transferred to the deputy 
assistant secretary for fish, wildlife, and parks. I was wrong 
to not seek ethics guidance. I am sorry that I failed initially 
to understand and even accept my mistake. I have apologized to 
all NPS employees through my memo distributed to the field, and 
I urged them all to learn from my mistake and to ask for ethics 
guidance when it is needed. I also offer my apology to the 
American people who have entrusted me with leading the National 
Park Service and upholding the highest standards of public 
service.
    I was held accountable for my mistake. Holding employees 
accountable is essential to the National Park Service to uphold 
the public trust it enjoys. When mistakes and inappropriate 
actions are identified, we must follow due process and 
determine appropriate response.
    In some cases, the NPS identifies misconduct and refers the 
case to the Office of Inspector General to investigate. We do 
that to ensure an impartial review. For instance, the NPS 
referred a case involving the improper purchase of firearms and 
weapons at the Mojave National Preserve to the OIG. Together, 
they ensured that the situation was thoroughly investigated and 
those involved were held accountable.
    In other cases, reports to the inspector general come from 
others. The National Park Service is committed to cooperating 
with the Office of the Inspector General and takes its reports 
very seriously. One example, of course, is the recent report on 
sexual harassment at the Grand Canyon River District. The 
National Park Service leadership is extremely disappointed in 
the situation here, and we are acting quickly and thoughtfully 
to change the conditions that allowed this to happen.
    We have zero tolerance for sexual harassment. We are 
committed to fundamentally changing the culture that previously 
allowed such harassment to develop and occur.
    Among leadership, we take a comprehensive servicewide 
approach to addressing sexual harassment. We'll identify and 
fix the conditions that allow harassment to take place, build 
work environments where everyone is treated with respect and 
dignity, and hold these individuals who engage in sexual 
harassment accountable, that includes senior leaders. The 
superintendent of Grand Canyon retired on June 1, and we'll be 
selecting a new superintendent soon.
    With the advice and support of Members of Congress, 
including Congressman Niki Tsongas, the National Park Service 
is learning from other large organizations that reduce sexual 
harassment, including the Department of Defense and the 
National Oceanic and Atmospheric Administration. We will 
conduct a unanimous nationwide survey of employees to 
understand the prevalence of sexual harassment, and we'll use 
that information to inform our--at every level of the 
organizations.
    We are committed to ensuring that every NPS employee can 
work in a safe and secure environment, and they are treated 
with respect.
    Thank you, Mr. Chairman. That concludes my oral statement. 
And I'm happy to answer any questions.
    [Prepared statement of Mr. Jarvis follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Chairman Chaffetz. Thank you.
    Ms. Kendall, you're now recognized for 5 minutes.

                   STATEMENT OF MARY KENDALL

    Ms. Kendall. Mr. Chairman, Ranking Member Cummings, and 
members of the committee, thank you for the opportunity to 
testify today about a series of reports the Office of Inspector 
General has issued regarding misconduct and mismanagement in 
the National Park Service.
    The Office of Inspector General serves the vital role as an 
independent, objective body to investigate matters that 
ultimately violate public trust. The OIG has a great deal of 
experience uncovering ethics and other conduct violations by 
interior employees, high-ranking officials, and others whose 
positions of trust make their misconduct particularly 
detrimental to the operations of the department, the morale of 
its employees, and the reputation of all Federal employees.
    I remain convinced that as a whole, those who engage in 
wrongdoing are in the minority. Unfortunately, misconduct by 
those few receives notoriety and casts a shadow over the entire 
department. That shadow looms large, especially over NPS 
following our recent release of investigative reports, 
including those that substantiated sexual harassment at Grand 
Canyon and Canaveral National Seashore, ethics violations by 
Director Jarvis, and misuse of park housing by the chief ranger 
at Yellowstone.
    Our investigative report on sexual harassment at the Grand 
Canyon provided a glaring example of NPS management failing to 
take proper action when employees reported wrongdoing.
    Similarly, after receiving an investigative report on the 
chief ranger of Yellowstone National Park violating the rules 
on the use of park housing, the chief ranger was transferred to 
another park and named superintendent.
    A recent media article raised concerns about the leadership 
at Cape Canaveral National Seashore. The OIG has issued four 
reports in 4 years on alleged misconduct and/or mismanagement 
at this park. Three of the four reports substantiated 
allegations against the park's chief ranger, including 
violation of Federal procurement rules, conduct unbecoming an 
NPS law enforcement officer, and sexual harassment.
    Last week, we issued a report to NPS about sexual 
harassment by the same chief ranger who continues to serve in 
that position despite three substantiated allegations against 
him in less than 2 years.
    NPS has not had time to respond to this most recent report, 
but with three other reports in 4 years, this is a profound 
example of the leadership problem that NPS has failed to 
address at multiple levels.
    Finally, the same superintendent has been at Canaveral 
since 2010, was named as the subject in our 2012 report, and 
was found by the Merit Systems Protection Board to have 
committed reprisal against an NPS whistleblower for contacting 
the OIG. Yet we have no indication that NPS has taken 
disciplinary action against her.
    The department does not do well in holding accountable 
those employees who engage in mismanagement or misconduct. We 
see too few examples of senior leaders making the difficult 
decision to impose meaningful corrective action and hold their 
employees accountable. Often, management avoids discipline 
altogether and attempts to address misconduct by transferring 
or counseling offending employees, which is viewed by other 
employees as condoning this behavior.
    NPS, in particular, has a real opportunity to address 
employee misconduct and mismanagement more meaningfully. A 
pattern and practice of accountability must begin at the top. 
Consistent messaging by senior leadership provides a clear 
message of what behavior is expected. We have encouraged 
leadership to demonstrate more support for those who serve in 
gatekeeper roles, such as contracting officers and human 
resource personnel. But many such gatekeepers feel undue 
pressure from managers to make things happen, regardless of 
rules and regulations, such as that recently detailed in our 
report concerning allegations that the now former director of 
the NPS Denver Service Center improperly directed a contract 
award.
    Working with Interior's deputy secretary, chief of staff, 
and Office of the Solicitor, we have witnessed an increased 
effort to be more responsive and decisive in corrective actions 
regarding employee wrongdoing. We are encouraged by this at the 
department level, but we would like to see the same at the 
bureau level, taking prompt, appropriate disciplinary action in 
response to OIG reports of misconduct.
    This concludes my prepared testimony. I would be happy to 
answer any questions that members of the subcommittee--of the 
committee would have.
    [Prepared statement of Ms. Kendall follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
   
    Chairman Chaffetz. Thank you. Thank you, both.
    I'll now recognize myself for 5 minutes.
    Director Jarvis, I would agree with you that people do make 
mistakes, but I draw a distinction between mistakes and 
deception, which I view as a whole other category of problems.
    On November--I'm sorry--June 11th of 2015, you wrote a 
handwritten note to Sally Jewell, the secretary of the 
Department of the Interior. It was four sentences long, barely 
two paragraphs. Do you stand by that? Was there anything wrong 
or deceptive about that handwritten note that you gave the 
secretary?
    Mr. Jarvis. So I wrote the note to let her know that I had 
published this book, was, I think, her first awareness of the 
book. I said in that that there were no ethics issues because I 
had written it on my own time. I had asked Eastern National--or 
I said in the note that Eastern National had requested it of 
me, which is Eastern National does publish a lot of books for 
the National Park Service, and that all benefits are going to 
the National Park Foundation.
    When I wrote that note, I thought I was following the 
ethics rules, with the exception that I had not asked 
permission to produce the book.
    Chairman Chaffetz. Why didn't you ask permission?
    Mr. Jarvis. I felt that the book would be subject to 
extensive review and probably would not get published in the 
centennial----
    Chairman Chaffetz. So you made a conscious decision to not 
ask ethics because you thought that you wouldn't get the result 
that you ultimately wanted.
    So did Eastern National request that you write the book or 
did you request of Eastern National that you write the book?
    Mr. Jarvis. The facts of the case are that I asked Eastern 
National if they were interested in the book, and Eastern 
National responded to say, let me ask you to write the book.
    Chairman Chaffetz. And they had a multimillion dollar 
contract with the Park Service, correct?
    Mr. Jarvis. No, they have no contract with the National 
Park Service. They are a cooperating association, which means--
--
    Chairman Chaffetz. The cooperation requires--results in 
millions of dollars of business.
    Here's my problem with what you wrote. It was not true. It 
was deceptive and it was intended to make the appearance to the 
Secretary of the Interior that there was no ethical problem and 
that you were doing this at the request of Eastern National, 
neither of which were true, correct?
    Mr. Jarvis. I think that it was incorrect.
    Chairman Chaffetz. Why should the secretary trust you? Why 
should we trust you?
    Mr. Jarvis. Because I have served as a public servant for 
40 years, in leadership roles for 25 years with an impeccable 
record of service to the American people.
    Chairman Chaffetz. I don't know that that--I don't know 
that I take--I take issue with the idea that it's impeccable 
when you give a handwritten note to the Secretary of the 
Interior deceiving her on two key points.
    Mr. Jarvis. And I apologized profusely.
    Chairman Chaffetz. No. What you said, actually, when you 
were confronted by the inspector general----
    Ms. Kendall, I want you to weigh into this. With this 
report--you have this. Was it a transcription? Or what was this 
interview with the director? We asked Jarvis whether, looking 
back, he would have done anything differently, and he said--and 
then it's quoted here. Was that because it was transcribed or 
was that a recording?
    Ms. Kendall. I believe we transcribed that. We were 
recording.
    Chairman Chaffetz. Mr. Jarvis, when you were asked about 
this by the inspector general, this is what you said. I'm going 
to quote, ``Would I have done the same thing? Probably. I think 
I knew going into this there was a certain amount of risk. I've 
never been afraid of risk. I've gotten my ass in trouble many, 
many, many times by the Park Service. By not necessarily 
getting permission, I've always pushed the envelope.'' And then 
you go on from there.
    That is your quote, correct?
    Mr. Jarvis. That is my quote.
    Chairman Chaffetz. And now you're apologizing because we're 
essentially having a public hearing.
    Mr. Jarvis. No, I apologized a long time ago, long before 
this hearing. And I apologized directly to the secretary and to 
the leadership of the National Park Service. And that was a 
mistake and I fully own it.
    Chairman Chaffetz. And you lied to her, you deceived her, 
and I think it's wholly inappropriate.
    And now we look at the situation that's happening in Cape 
Canaveral--or the Canaveral National Seashore. This chief 
ranger--this is a fairly small park in the big scheme of 
things, right? Fifty or so employees. Is that about right?
    Mr. Jarvis. It's a small park. I don't know what the 
staffing size is.
    Chairman Chaffetz. So Ranger Correa? How do you pronounce 
his name?
    Mr. Jarvis. Correa.
    Chairman Chaffetz. Correa. Three documented cases of sexual 
harassment, procurement problems, conduct unbecoming. Three of 
the four IG reports have been highlighting this, and you, your 
office, the National Park Service, is handing him out awards, 
safety awards. How does somebody who's getting, on the one 
hand, reprimands and highlights in sexual harassment problems--
again, there's only 50 people, and they've got three documented 
sexual harassment issues. You go to the superintendent, the 
superintendent had allegations of reprisal that were found by 
the Merit Systems Protection Board and resulted in a 
settlement. You had to go into a settlement with the National 
Park Service. Those were--and the person is still on the job.
    Mr. Jarvis. His commission has been removed, but he is 
still in a--he's still a Federal employee, but his 
responsibilities have been removed.
    Chairman Chaffetz. This becomes more than just an isolated 
incident where somebody makes a mistake.
    Ms. Kendall, you've been looking at this. Give us a 
perspective first, if you would, on the note that was written 
by Director Jarvis to the secretary, and then I want to ask you 
about Canaveral.
    Ms. Kendall. I would say that the note was----
    Chairman Chaffetz. Sorry. Move the microphone up a little 
tighter there.
    Ms. Kendall. Sure.
    Chairman Chaffetz. Just pull it up. There you go.
    Ms. Kendall. I would say that the note was not accurate, 
and I agree with your characterization that it was deceptive.
    Your other question was?
    Chairman Chaffetz. How severe is the situation at 
Canaveral? How often do you have to go back and write three 
reports on the same topic?
    Ms. Kendall. I would hope we would never have to write 
another report on any of those topics that--at that park again.
    Chairman Chaffetz. Has it been resolved?
    Ms. Kendall. Not to my knowledge.
    Chairman Chaffetz. My time has expired.
    Let me go to the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Ms. Kendall, you've identified, ``evidence of a long-term 
pattern of sexual harassment and hostile work environment in 
the Grand Canyon River District.''
    In addition, you had issued a report, just a few days ago, 
finding that a law enforcement supervisor at the Canaveral 
National Seashore has, ``shown a pattern of sexual 
harassment.'' against three employees at the seashore.
    Do you believe that these are isolated incidents or are 
they indicative of more pervasive problems within the Park 
Service?
    Ms. Kendall. I cannot take these two examples----
    Mr. Cummings. Can you talk a little louder, please?
    Ms. Kendall. Certainly. I would not take these two examples 
and paint the entire Park Service with that same brush, but it 
does cause concern that there may be a more pervasive problem 
when you've got it at two different parks in this kind of 
level.
    Mr. Cummings. So what else is your office doing to try to 
answer this critical question? Because based on what you just 
said, it sounds like you have some questions yourself as to how 
pervasive it might be. And so what do you do to look beyond it? 
I assume that the IG would be interested in that.
    In other words, if you keep seeing these things come up, 
the chairman has mentioned various things and I'm just curious, 
what do you do?
    Ms. Kendall. Well, by publishing our reports, we're hoping 
that there is some deterrent effect to that. I do know that the 
Park Service is making some effort to make a determination as 
to how pervasive----
    Mr. Cummings. Are they moving fast enough? I guess that's 
the question. There's no reason why a woman should--any woman 
should be--or man should come to work--there are people 
watching us right now and--from the Park Service, and they want 
to know that these issues are being resolved, and I know that 
you do too.
    And so it seems like there is--it seems like there's a 
delay. And you used some words that were very interesting. You 
said they--they try to avoid discipline altogether, something 
like that. And that--what that says is that--it reminds me of 
an old-boy system, you know, where you say, okay, you know--or 
a wink, give you a wink and you can get away with it and we'll 
transfer you and you keep doing the same level as the 
supervisor. I mean, can you help us with--the question is, are 
they moving fast enough? Because it's not--it doesn't give 
anybody any relief to know that this stuff just goes on.
    And Mr. Jarvis will tell us that he's doing things, but to 
be very frank with you, I don't think he's moving fast enough. 
But I want your opinion on what can be done better.
    Ms. Kendall. Quite frankly, I don't know the status of what 
the Park Service has done or is doing right now. I agree with 
you that the people should, in any environment, be able to come 
to work free of sexual harassment and would hope that the Park 
Service is taking the kind of action, with the survey that 
they're talking about, to understand the breadth of the problem 
and then to come up with some corrective action.
    Mr. Cummings. Mr. Jarvis, the same question. What steps is 
the Park Service taking to determine how pervasive sexual 
harassment is at its facilities?
    Mr. Jarvis. So let's start with the Grand Canyon. There 
were 18 specific actions that the inspector general 
recommended. They had due dates of mostly by the 1st of May. 
Almost every one of those have been implemented. There's a 
second set that's coming forward, but they're--they range from 
personnel, to change in field operations, to training, to 
communication and, specifically, to disciplinary actions on 
individuals that were either committed or omitted activities 
related to the Canyon. So we are aggressively pursuing that at 
the Canyon.
    Mr. Cummings. Whoa, whoa, whoa, whoa. Let's rewind. Staff 
tells me that most of them have not been addressed.
    Mr. Jarvis. Well----
    Mr. Cummings. I want--you know, the chairman has already 
made it clear that he has some concerns about you're being able 
to tell the truth. So I want to remind you, you are under oath. 
And would you answer that question again?
    Mr. Jarvis. Yes, sir. So I have a summary of actions in 
response to the inspector general's report as of May 23rd, 
2016, that were prepared by our intermountain regional 
director. I cannot go into the details of the disciplinary 
actions in this forum, but I can tell you that they are all 
underway.
    We've launched--we've closed down the River District. All 
river trips are being done by a third-party provider--private 
river rafters----
    Mr. Cummings. Let me--I only have a limited amount of time. 
I want to help you answer my question, because I'm not trying 
to trip you up.
    Director, how many of these action items have been fully 
completed as of today? You said there were 22, right?
    Mr. Jarvis. 18.
    Mr. Cummings. 18.
    Mr. Jarvis. There were 18----
    Mr. Cummings. And how many, Director, have been completed 
as of today?
    Mr. Jarvis. I'd have to count up. Can I count?
    Mr. Cummings. Yeah.
    Mr. Jarvis. Okay.
    Mr. Cummings. You probably would say on average seven. But 
go ahead.
    Mr. Jarvis. There are seven----
    Mr. Cummings. Very good.
    Mr. Jarvis. --of the 18 that are completed.
    Mr. Cummings. Well, you just said the majority of them 
were. Isn't that what you said? Did I miss something?
    Mr. Jarvis. Well, seven are completed. There's one, two, 
three, four, five, six, seven that are actively underway but 
not finalized. Like the disciplinary actions take time to 
pursue, but they are actively underway.
    Mr. Cummings. Do you agree with that, Ms. Kendall? I know 
you don't--you said you don't know everything he's doing, but 
just based on what he just said, do you agree that--with regard 
to the things that should have been done, that they--that they 
should take all of this time? I guess that's what I'm getting 
at.
    Ms. Kendall. Because I don't know the details, sir, I can't 
opine on that. I do know that disciplinary action does take 
time. I'm happy that the National Park Service is actually 
taking disciplinary action. And my recollection is we only had 
three or four specific recommendations. So I'm not completely 
familiar with the 17 or 18 items that he's talking about.
    Mr. Cummings. Mr. Jarvis, my time has run out, but I want 
you to go ahead and tell me what you have done, I think for the 
benefit of the entire committee. Because I'm going to tell you, 
I'm not sure that you need to be in this position, but go 
ahead.
    Mr. Jarvis. So, servicewide, I think the Grand Canyon is an 
indicator, as well as Cape Canaveral, that we may have a 
significant problem of sexual harassment in the Service in 
certain areas. I want to say it up front, the vast majority of 
the employees have a safe work environment.
    However, in discussions with the Department of Defense 
Office of Sexual Assault Prevention and Response, we engaged 
their leadership with our leadership to talk about this for 
over 3 hours at our last national leadership council meeting. 
And General Nichols, who leads that office, indicated that if 
you have this level of pervasion in one place, it's an 
indicator you may have it in other parts----
    Mr. Cummings. And when was that meeting? When was that 
meeting?
    Mr. Jarvis. It was in May. And so we have launched one team 
effort in my office specifically to focus on how we are going 
to address this servicewide.
    The second is one of the general's recommendations was that 
we need to do a prevalence survey. That means to look entirely 
across the system anonymously to allow employees to report 
whether or not they have been or are currently being subjected 
to sexual harassment or a hostile work environment.
    Mr. Cummings. I yield to the chairman.
    Chairman Chaffetz. Just to quickly follow up on that, the 
superintendent at Canaveral, has been there since 2010, was 
named in the subject of a report to Director Jarvis in 2012. 
The report of the allegations of misconduct in the 2012 report 
included allegations of reprisal that were found by the Merit 
Systems Protection Board to be accurate. They had to enter into 
a settlement.
    What I think you're telling Mr. Cummings is not a candid 
response to this problem. It was not some report that showed up 
on your desk in the last 2 weeks. This happened years ago. It 
was last--this is, again, a small group. And what you're 
telling Mr. Cummings here is that the majority of this has been 
dealt with. But when it was brought to your attention, and 
there were reprisals for the whistleblowers, you didn't deal 
with it. You did not deal with it.
    Mr. Cummings. I--well, just one last thing.
    You just said you had this meeting in May, but keep in mind 
that the inspector general report goes back to November 16, 
2015. Why did it take so long?
    Mr. Jarvis. This was the first--this was the first meeting 
of our national leadership council where we get all the senior 
leaders of the National Park Service to specifically address 
this.
    Mr. Cummings. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I now recognize the gentleman from 
Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman. And there are 
very few people for whom I have higher respect than I do for 
Ranking Member Cummings. He has a very difficult task at times 
in usually trying to defend administration witnesses, but it 
does send a message to Director Jarvis and throughout the Park 
Service that Mr. Cummings did not defend Mr. Jarvis today and 
instead pointed out several different types of problems that 
have occurred in the Park Service. And I'm--I think that's very 
significant.
    I spent 22 years, up until about 6 years ago, on the 
Interior Committee, and now I serve on this committee and 
another committee. But I heard years ago that there was a $4 
billion backlog, maintenance backlog and then I heard it was $6 
billion and then I heard it was $9 billion, and now I get a 
material here that says the maintenance backlog is 12 billion.
    I have great respect also for people--for education and 
people who get advanced degrees, but I think the Park Service 
needs to stop hiring so many Ph.D.s and master's degrees and 
historians and archivists and environmental activists and so 
forth and start hiring more laborers to chip away at this 
maintenance backlog if it's not being exaggerated. I think we 
have at the Park Service far too many chiefs and not nearly 
enough Indians.
    But I also have been disturbed over the years by seeing 
that almost all or at least a great many of Federal contracts 
are awarded to companies that hire former, high-ranking Federal 
employees. We see that in the Defense Department. They hire all 
the retired admirals and generals. This seems to be throughout 
the Federal Government.
    But I was disturbed, for instance, when I read from the 
staff that the Interior Department's Solicitor's Office had 
concerns when the Denver office of the Park Service originally 
attempted to--it says, quote, originally attempted to steer the 
award to--of this big contract to a construction firm, 
McDonough Bolyard Peck, even though their prize was much higher 
than other qualified bidders. The Denver Service office then 
canceled the solicitation for the position and later hired the 
same construction company under a new solicitation created with 
the requirements that only that particular contractor could 
meet.
    Director Jarvis, do you have a system in place to question 
contracts when they're not awarded to the--when they're being 
awarded to the highest bidders instead of to the low bidders? 
Or do you have a system in place to question contracts that--or 
to prohibit contracts from being awarded to companies that hire 
former employees of the Park Service?
    Mr. Jarvis. Thank you for that question, Congressman. We do 
have an audit program over our contracting officers, because 
they could lose their warrant for awarding contracts in some 
ways that you suggest.
    And we appreciate the audit and investigation by the 
inspector general that has revealed this case. This is new to 
us, and it is something we are going to pursue actively in 
terms of both discipline and corrective action in terms of 
ensuring this can't--doesn't happen again.
    Mr. Duncan. And on this book contract that you've been 
asked about, I understand that you said it was--that the 
proceeds were to be donated to charity. Can you tell us how 
much has been donated to charity at this point?
    Mr. Jarvis. I do not know that, how much has been donated.
    Mr. Duncan. The staff tells us that none has been donated 
to charity.
    Mr. Jarvis. The book sales--let me clarify. The book is 
sold by Eastern National, which is a cooperating association of 
the National Park Service, and it is required under its 
agreement to return to the National Park Service 12 to 17 
percent of its annual profit. So that funding, whatever profit 
they get from the book, that can come back to the Park Service 
directly for projects through the system. Any addition to that 
can go to the National Park Foundation, but none of it comes to 
me.
    Mr. Duncan. All right. Let me--my time's up. Let me just 
mention one other thing. I represent about half the Great Smoky 
Mountains National Park. That park is being overrun by 
thousands, many thousands, of feral hogs, and I know that many 
people are antihunting or some in this administration are--
don't like hunting, but we've got very serious problems that 
are going to lead to very serious disease problems if more--if 
many more thousands of these feral hogs are not gotten out of 
the Great Smoky Mountains.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. I thank you for 
holding this hearing.
    Ms. Kendall, I have some questions for you. And I'm going 
to ask you to pull that microphone really close to your mouth. 
You're a low talker, and we need to hear you.
    I'm going to ask you about your office's investigation of 
the allegations arising from a February 2014 river trip that 
led to the discipline of two female Grand Canyon term 
employees, women who were accused of inappropriate dancing and 
the use of a novelty drinking straw. They received 14-day 
suspensions and their contracts for employment with the Park 
Service were not renewed after their terms expired. Both of 
them alleged retaliation. But your investigation concluded 
that, and I quote, ``We found insufficient evidence to prove or 
disprove the allegation of retaliation,'' unquote.
    Have I read that correctly?
    Ms. Kendall. Yes, I believe you read it correctly.
    Mr. Cartwright. Well, let's go over some of the facts in 
your report. Is it true that one of the employees who 
complained about the two women was himself the subject of 
several prior complaints of sexual harassment?
    Ms. Kendall. That's correct.
    Mr. Cartwright. Did your investigation find that former 
Grand Canyon Superintendent Uberuaga had any type of commonly 
known opinion about that person?
    Ms. Kendall. I don't know about opinion. I think he had 
some knowledge.
    Mr. Cartwright. Okay. You want to share that with us?
    Ms. Kendall. Pardon me?
    Mr. Cartwright. Would you share that with us?
    Ms. Kendall. Well, he launched an investigation himself 
internally about the conduct that was complained about earlier, 
sexual harassment kind of conduct. And that report never seemed 
to make its way to anyone who could actually do something.
    Mr. Cartwright. All right. And your report also notes that 
the supervisor who conducted the internal investigation 
admitted that he did not feel responsible for determining 
whether the complaints against the two women employees were 
exaggerated or if the allegations against them were in 
retaliation for their sexual harassment claims. He felt it 
wasn't part of his job, and this supervisor did not even 
interview all of the people who were on that February 14 trip. 
But this supervisor's investigation was used as the basis of 
disciplinary action against the two women.
    Ms. Kendall, your investigation found that several Grand 
Canyon employees and managers, including the superintendent, 
agreed that the internal investigation of the allegations 
against the two women employees were insufficient and 
incomplete. Am I correct on that?
    Ms. Kendall. I believe that's correct.
    Mr. Cartwright. Did you find evidence that men who had been 
accused of sexual harassment received less severe disciplinary 
action than that recommended against these two women?
    Ms. Kendall. I believe we did.
    Mr. Cartwright. Would you say that louder?
    Ms. Kendall. I believe we did.
    Mr. Cartwright. Ms. Kendall, it's our understanding, from 
discussions with the Office of Personnel Management, that term 
employees have similar protections under the merit system as 
full-time employees. Would it be unreasonable for somebody 
looking at the fact pattern here involving discipline against 
these women to conclude that these women did indeed suffer 
retaliation for their claims of harassment?
    Ms. Kendall. Our office was unable to conclude that they 
did, but I think we were unable to go either way.
    Mr. Cartwright. All right.
    Well, Director Jarvis, I want to invite your attention to 
this matter. I understand that the two women filed EEO 
complaints against the Park Service. Are you aware of that?
    Mr. Jarvis. Yes, I am aware that they have filed.
    Mr. Cartwright. And what is the current status of those 
complaints that the women filed?
    Mr. Jarvis. I'm not aware of those two specific. There were 
actually seven filings from women associated with the Grand 
Canyon and this incident. I believe several of them have been 
settled, but I'm not aware of the details.
    Mr. Cartwright. My understanding is the National Park 
Service entered into settlement agreements with both of these 
women last week. Were you not aware of that, Director Jarvis?
    Mr. Jarvis. No. This is being managed out of our 
intermountain regional office by our regional director and so 
I'm not directly involved.
    Mr. Cartwright. Okay.
    And, Ms. Kendall, were you aware of that settlement last 
week?
    Ms. Kendall. I was not.
    Mr. Cartwright. Well, I'm happy to help.
    I yield back, Mr. Chairman.
    Mr. Cummings. Would the gentleman yield? Would the 
gentleman yield?
    Mr. Cartwright. Yield to Mr. Cummings.
    Mr. Cummings. Just one question. Wouldn't you want to know 
that? I mean, you've got--I mean, a settlement, something 
that's controversial as this? I'm just curious. What kind of 
management is that?
    Mr. Jarvis. I do want to know----
    Mr. Cummings. But you don't know it today?
    Mr. Jarvis. I don't know the specifics. I do not----
    Mr. Cummings. Do you know there was a settlement?
    Mr. Jarvis. I knew the settlements were in negotiation, 
absolutely.
    Mr. Cummings. But you didn't know the settlement took 
place?
    Mr. Jarvis. I did not hear that the settlements had been 
settled, no.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel.
    Director Jarvis, in December of 2011, you issued an NPS 
memo establishing a ban on plastic water bottle sales in the 
national parks. Is it true that most, if not all, of the parks 
that have implemented the plastic bottled water ban still sell 
other plastic packaged beverages, soda, enhanced water, juice, 
et cetera? Is that still the case?
    Mr. Jarvis. Yes, sir, they still do.
    Mr. Walberg. Do you feel it is safe and healthy to ban the 
sale of bottled water?
    Mr. Jarvis. When the public are provided an ample 
opportunity to get that water from a variety of sources, which 
we've built in, that's a requirement of the policy, they have 
to have filling stations throughout the park in order for them 
to refill reusable bottles.
    Mr. Walberg. Can you say with absolute certainty that this 
ban on plastic water bottles has reduced garbage in the 
national parks?
    Mr. Jarvis. Yes, with certainty, absolutely.
    Mr. Walberg. What analysis has been conducted?
    Mr. Jarvis. We collect data on our solid waste management. 
I don't have that in front of me, but I'd be glad to get back 
to you specifically on the reduction of waste in the waste 
stream.
    Mr. Walberg. Well, I'd like to see that on reduced waste. 
I'd like to see it on decreased disposal costs, information on 
that. I'd like to see it on increased recycling since 
implementation. Those are issues I'd like to see. Because, 
frankly, the question still remains, we get rid of the water in 
bottles and the sales of those water bottles, but we don't get 
rid of the sale of pop in the same bottles, energy drinks in 
the same bottles, juices in the bottles as well.
    My concern is that--I mean, we know that we need water. 
I've hiked enough of the national parks all across this Nation 
to know that that's important, and the fact of the costs of 
putting in water filling stations leaves me a concern that 
there are contractual issues that we ought to be concerned with 
as opposed to simply letting the sales take place to people who 
need the water.
    And, again, I'm not certain at this time that the necessary 
studies have been done to show that we've had an impact, other 
than stopping the sale of water bottles, water in water 
bottles, in the State parks for whatever reason--the national 
parks, whatever reason that may be. I think there certainly 
ought to be questions that are raised about that subsequent to 
the needs of our visitors as well as contracting issues.
    Let me go to another issue. An inspector general's report 
found that Yellowstone's chief ranger breached the terms of an 
occupancy agreement with NPS by failing to live full time, as 
agreed in the contract, full time in an apartment on 
Yellowstone's grounds.
    Why is it important that the chief ranger of Yellowstone 
live in the park and not somewhere off the grounds?
    Mr. Jarvis. So in many of our national parks, we have 
what's known as required occupancy. So a certain portion of 
park housing were constructed by the Federal Government and 
provided, though the employees pay rent, so that there can be 
quick response for emergency situations, fire, emergency 
medical, and the chief ranger leads that effort at Yellowstone.
    Mr. Walberg. So there's a potential of a loss of security, 
safety to park visitors as well as staff without the head 
ranger living onsite?
    Mr. Jarvis. According to the superintendent, the chief 
ranger lived in a private quarters that still allowed him to 
have rapid response. It was right on the park boundary but 
outside the park.
    Mr. Walberg. I understand that he--that he didn't rent out, 
but he allowed outside visitors to live in that apartment 
instead of himself. Is that true?
    Mr. Jarvis. That is correct.
    Mr. Walberg. Let me ask, what kind of discipline or 
reprimand did the ranger receive?
    Mr. Jarvis. He did receive specific discipline. Again, I 
can't talk about individual discipline in a public forum, but 
I'd be glad to come to your office and talk to you specifically 
about it. But he was disciplined in this case.
    Mr. Walberg. Is he still in the same place?
    Mr. Jarvis. He is not. He is a superintendent at Devils 
Tower, which was a demotion.
    Mr. Walberg. Okay. Thank you.
    I yield back.
    Chairman Chaffetz. Director Jarvis, you are not inhibited 
in your ability to give an answer about specific discipline on 
a case that's asked in this forum. So your holding back and not 
providing an answer to Mr. Walberg, there's no encumbrance 
here. If we ask you a question, we need you to answer it. So if 
you know the answer to that question, I need you to answer it.
    Mr. Jarvis. Chairman, I've been told by my solicitors, and 
I would ask that they--that specific disciplinary actions are 
Privacy Act issues.
    Chairman Chaffetz. We will follow up, for the record, with 
you on that to make sure, Mr. Walberg, that you get the answer 
to that question.
    We'll now recognize Ms. Kelly of Illinois for 5 minutes.
    Ms. Kelly. Director Jarvis, first and foremost, I just want 
to say thank you for all of your help with Pullman. I really, 
really appreciate it.
    We've talked about 18 action items dealing with Grand 
Canyon. Why has the implementation of some of these action 
items been delayed?
    Mr. Jarvis. I don't believe that any of these actions have 
been delayed. As--in the disciplinary aspect of taking specific 
discipline on employees, that is a slow process. There are laws 
established by the Congress that are specific to Federal 
employees. Title V, the Merit System Promotion Board, the 
Douglas Factors, all have to be applied in the disciplinary 
pieces, and so that's why they have not yet been totally 
executed but are absolutely in process. But they all have to be 
reviewed at a variety of levels before we can actually take the 
disciplinary action. All the others, there are no delays in the 
other actions.
    Ms. Kelly. What about some of your self-imposed deadlines? 
Have you met those?
    Mr. Jarvis. I believe we have, yes.
    Ms. Kelly. Okay. While all of these action items are 
important, several are particularly critical to ensure that the 
perpetrators of sexual harassment are not able to harass anyone 
else at the national parks. One action item states, and I 
quote, The OIG report highlights that the majority of the 
incidents described by the complainants involve four employees 
of the River District at Grand Canyon. One of those four 
individuals remains an employee. In light of the OIG report, it 
is appropriate to take appropriate disciplinary or personnel 
action to remove this individual from specific work environment 
of the River District. What is the status of the fourth 
individual?
    Mr. Jarvis. The fourth individual still is an employee of 
the National Park Service at the Grand Canyon but has no 
involvement whatsoever with the River District operations and 
is in no position to continue any harassment. He is just being 
held in a position with his rights as a Federal employee and 
will be subject to discipline.
    Ms. Kelly. So that's why he's still there, because you're 
just following a process?
    Mr. Jarvis. But he's been removed from any role that he 
might play on the Canyon.
    Ms. Kelly. And besides being removed, has any disciplinary 
action been taken yet?
    Mr. Jarvis. I'm sorry. Could you say that again?
    Ms. Kelly. I know he was removed and put into another 
position, but has any disciplinary action been taken yet?
    Mr. Jarvis. Not yet. No, we're still working on that.
    Ms. Kelly. Okay. Director Jarvis, another action item 
involved contracting out for, ``logistical support of nonpatrol 
river trips involving park staff.'' Has this item been 
completed?
    Mr. Jarvis. Yes. So the regional director for the 
Intermountain Region has taken very specific actions at the 
park, one of which was essentially elimination of the River 
District, and commercial river rafters are now providing the 
river access for the kind of activities that the rangers were 
doing before.
    Ms. Kelly. So how will contracting out the staff of river 
trips ensure that this won't happen again?
    Mr. Jarvis. We are meeting and providing training to those 
commercial operators who've been providing services on the 
river. They are all under contract with the National Park 
Service to provide these services and we can hold them 
accountable through those contracts.
    Ms. Kelly. And how can we be ensured that the employees 
that did perpetrate this not be hired again?
    Mr. Jarvis. Well, I can assure you, they will not be hired 
again. This will be retained as a part of their record and the 
disciplinary actions will become part of their official files.
    Ms. Kelly. Even if they come through contractors you can 
ensure that?
    Mr. Jarvis. There actually has been discussion about that 
specifically, so we're talking specifically to the contractors 
that they cannot hire these individuals.
    Ms. Kelly. Okay. The inspector general also found that the 
Grand Canyon engaged an individual as a volunteer who had 
previously worked at the park and resigned after being 
suspended for sexual misconduct on a river trip. What are you 
doing to ensure that boatmen who engage in harassment who have 
left the Park Service employment cannot be rehired by or 
volunteer in any national park?
    Mr. Jarvis. Well, again, I think it's up--to float the 
river requires a permit from the National Park Service for 
any--whether they are volunteer, they're a contractor, other 
Federal agency. I think now that we are very, very aware of 
that the river trip creates the potential for this kind of 
harassment, we are actively engaged in training, oversight, 
regular communications, and post-trip evaluations so that folks 
that are coming off of these trips are interviewed within 7 
days to determine whether or not there were any issues.
    Ms. Kelly. Thank you.
    And I'm out of time. I yield back.
    Chairman Chaffetz. I thank the gentlelady.
    I will now recognize the gentleman from Florida, Mr. Mica, 
for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    And, Director Jarvis, you have 22,000 employees. Is that 
correct?
    Mr. Jarvis. Yes, sir.
    Mr. Mica. And I'm told you have over 400 sites that you 
manage, entrust for the American people. I don't have a 
national park in my district anymore. I did have St. Augustine. 
I have to tell the members and Mr. Jarvis that we have--well, 
at least my experience has been we have some incredibly 
dedicated, hardworking individuals with the Park Service who 
day in and day out and weekends, sometimes 24/7, do a wonderful 
job. And we appreciate their service, and they're doing it 
sometimes with limited resources and with a great crew of 
volunteers too.
    So we have a list that's a pretty tough indictment of 
people who abused their responsibility, and I think you started 
to tell some of the problem. And I've sat through--today we 
have the National Park Service. We've had EPA. We had IRS. 
We've had Secret Service. We've had GSA. The list goes on and 
on. And we hear the same thing. You just said that you have a 
process that you must go through for discipline. It's almost 
impossible to fire a Federal employee. I don't know if you 
would agree with that, but it's very, very difficult, isn't it, 
Director Jarvis?
    Mr. Jarvis. Yes, sir, I would agree with that very much so. 
I've done it a few times in my 40 years.
    Mr. Mica. But it's very, very difficult.
    Mr. Jarvis. It's very difficult.
    Mr. Mica. I chaired civil service for 4 years. I found it 
almost impossible, and that's part of the problem we face. 
Civil service was set up as a protection against political 
manipulation or misuse of authority over legitimate working 
civil servants. And it's gone far beyond that in providing 
cover for people who don't do a good job and it puts barriers 
in the way.
    You could probably go through these cases and cite all of 
the compliance that you had to do, the due diligence required 
by Title 5, by other regulations, by other laws that constrain 
you from taking immediate action. Is that correct?
    Mr. Jarvis. Yes, sir, that is correct.
    Mr. Mica. Okay. It's hard sometimes. We can't get agency 
directors to come forward, but do you have any suggestions for 
anything that might speed up or improve the process to get rid 
of these poor performance or malfeasance employees?
    Mr. Jarvis. Specifically, no. But I would certainly 
appreciate the willingness of the committee to work with us on 
some reform in this area, because I do think it is a 
significant problem for us to be able to deal effectively. If 
we do not follow the rules throughout the process, there's a 
high likelihood that the individual can be reinstated.
    Mr. Mica. But again, we hear this. You're not the only 
agency with these personnel problems.
    Ms. Kendall, okay, you have management--do you see a lack 
of management or do you see a similar pattern that we described 
or both with what you have observed with some of these cases?
    Ms. Kendall. I would say both, sir. I perhaps disagree 
somewhat with you in terms of----
    Mr. Mica. Go ahead.
    Ms. Kendall. --difficulty by which to remove employees. I 
think the failure comes in the unwillingness to take 
progressive discipline and document.
    Mr. Mica. I like that, ``progressive discipline.'' Maybe I 
could--I'll have a new liberal approach to getting rid of 
people who are poor performers. I actually gave a certificate 
in Transportation. I called for the firing of Metro incompetent 
personnel and then the new director came to the second meeting, 
he fired 20 people the day before. I presented him with a 
certificate of appreciation because I never hear of anybody 
firing poor performers. He did it.
    But you say it's a lack of progressive----
    Ms. Kendall. Progressive discipline and documentation.
    Mr. Mica. Okay. Maybe I could do a bill--act for 
progressive discipline and documentation. But you think that 
could be something that we could do to get a better handle on 
this?
    Ms. Kendall. I think it's something that good managers do 
do, if they've got both problem employees----
    Mr. Mica. Maybe an executive order to that effect might 
help. Thank you.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from the Virgin Islands, 
Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman, and good morning 
everyone.
    Thank you, first, Director Jarvis, for the work that the 
Park is doing. I had a meeting with you and some other members 
about the reports and books that you've been putting out 
regarding reconstruction, the underground railroad, and for the 
work that you have for opening the parks to young people, the 
fourth-grade initiative. That's very important, I think, in the 
communities that the Park is enlisted to be around.
    One of the concerns that I have and I think that is an 
underlying issue with the Park is not just the misconduct of 
its employees, but the misconduct from the employee's 
perspective is really related to a disregard, I think, for 
individuals that are not in senior management potentially or 
not even necessarily part of the Park Service itself. In the 
Virgin Islands, as you know, the Park plays an integral role in 
our community. It takes up large masses of land, particularly 
on the island of St. John, the entire Buck Island, the 
waterways surrounding the Virgin Islands abut--or are 
incorporated by the National Park Service. And so the 
relationship that we have with the Park is very, very 
important.
    And one of the things that I hear continually from my 
constituents is a pervasive disregard and notable disconnect 
between the Park and its local employees, as well as the local 
government, and in fact, the people of the Virgin Islands. And 
I wanted to talk with you about that. I've had some very 
substantive conversations with the regional director, Stan 
Austin. I think that he's making headways in some of this 
regard, but I can't miss an opportunity with you being here to 
address some of these and maybe you can speak as well to this.
    First of all, you know, the National Park receives funding 
for Youth Conservation Corps, YCC, which is a source of income 
for the children in those communities, it is an opportunity for 
young people to learn about the park, and potentially train 
them to be excited about careers that involve the National 
Park. And this would then create a relationship between the 
park and its local people. And another reason why this is so 
important is because of the enabling legislation here in 
Congress that created the Virgin Islands National Parks.
    And one of the main components of that that I continually 
hear from my constituents is language that says that the 
secretary, meaning Secretary of the Interior, is authorized and 
directed to the maximum extent feasible, to employ and train 
residents of the Virgin Islands to develop, maintain, and 
administer the Virgin Islands National Parks.
    I don't know if you're aware of this particular piece of 
language. Are you aware of it, Director Jarvis?
    Mr. Jarvis. Yes, but not in any--not how it's been 
implemented, but I am aware of it.
    Ms. Plaskett. And reading that particular language, how do 
you, to the extent feasible, employ individuals and direct them 
to develop, maintain, and administer the Virgin IslandsNational 
Park if individuals that are from the Virgin Islands who are 
not part of the closed National Park system can't apply for 
employment within the national parks?
    Mr. Jarvis. Well, fortunately, Congress has given us a 
couple of new hiring authorities most recently that give us a 
much greater ability to do direct hire at the local level and 
to permanent employment. For a long time, it has been very 
difficult for local hires to sort of break into Federal 
service. But recently, Office of Personnel Management, the 
Public Land Corps legislation has allowed us that young people 
working as seasonals for the National Park Service, which is a 
fairly easy bar to get in because we hire about 8,000 seasonals 
a year, or if you serve in a Youth Conservation Corps position 
like a Public Land Corps you can attain essentially career 
status, noncompetitive status.
    Ms. Plaskett. So that's an interesting point that you raise 
about the Youth Conservation Corps, because the Virgin Islands 
has used that in the past. And on the island of St. Croix it's 
an active engagement. But on St. John where the relationship 
with the Park is much more intrinsic and much more involved, 
there has not been an active Youth Conservation Corps. Although 
they have received the funding for it for a number of years, 
they have stopped, in fact, utilizing this for the local kids 
that are there on the island of St. John. What's the reason for 
that?
    Mr. Jarvis. Well, I think it's a mistake. And I have talked 
to Regional Director Austin specifically about it. And you 
know, Congresswoman, it's an issue in San Juan, Puerto Rico. 
It's an issue, as you've mentioned, in the Virgin Islands. It's 
an issue in Alaska with native Alaskans, and it's also an issue 
in the West in working with young people. So I----
    Ms. Plaskett. You know, I--excuse me, if you would allow my 
indulgence, Mr. Chairman. I don't care that it's a mistake. 
It's a mistake that has had very severe consequences to the 
people of St. John.
    On the island of St. Croix you're employing 18 to 20, 
sometimes more students a year. On St. John you have hired no 
one for a number of years on the island of St. John where this 
park is very important. That then affects the individuals who 
are at the park. The superintendent on St. John as well has had 
changes made to the National Park in terms of access to land, 
construction plans, closure of fishing boundaries without 
community input and proper notification of the people of St. 
John, or the local government as well.
    Is this a mistake as well? And why are the people of the 
Virgin Islands being subjected to these continued mistakes by 
the park?
    Mr. Jarvis. Well, it is something that we are addressing 
very specifically. And I apologize to you for that. It is not 
our intent to disregard in any way, shape, or form the people 
of St. John or any of the islands. We think that they know the 
islands better than we do. They know the resources. They know 
the history. They've lived it, and we need them to be a part of 
the National Park Service and this is something that we are 
addressing aggressively through the Southeast region.
    Ms. Plaskett. Mr. Chairman, just so you're aware, and I 
would love to hold the record open. When I talked about lack of 
access to private properties, since 1989, with Hurricane Hugo, 
from 1989 individuals living on the island of St. John have not 
had access to their own private property because that access is 
landlocked by the National Parks. And repeated requests by our 
local legislature, our government, and individuals have not 
afforded them the ability to even visit the land that they live 
on because they have not, the parks, the management of the 
park, the superintendent, have not thought it's a priority to 
allow them to have public access to that.
    Chairman Chaffetz. You have a great deal of sympathy from 
me, and we have similar issues out West. And I thank the 
gentlewoman for her passion and perspective on this.
    We'll now recognize the gentleman from Arizona, Mr. Gosar, 
for 5 minutes.
    Mr. Gosar. Thank you, Chairman.
    Director Jarvis, my State of Arizona is no stranger to 
national parks. In fact, we're talking about one today. We're 
the home of 22 National Park units, including monuments, 
historical sites, parks, and more. As a result of the outsized 
impact national parks and monuments have on the land 
management, economy, and everyday lives of my constituents in 
Arizona, the seemingly careless nature of the National Park 
Service management of the deferred maintenance backlog really 
troubles me.
    It is reported that the growing tally of backlog 
infrastructure needs within the Park Service, such as roads, 
bridges, visitor centers, and campgrounds, which need 
significant maintenance or repair has reached nearly $11.5 
billion. Is that number correct?
    Mr. Jarvis. Yes, sir, that is correct.
    Mr. Gosar. So one of the most significant projects in that 
backlog is the Arlington Memorial Bridge, just a few steps away 
from the National Park Service headquarters right here in 
Washington, D.C. That bridge is in need of a $250 million 
overhaul. Is that correct?
    Mr. Jarvis. That's correct.
    Mr. Gosar. Yet the National Park Service officials who knew 
how dire the bridge situation was dropped the ball and nearly 
lost out on significant Department of Transportation funding 
assistance because it couldn't get their application paperwork 
on time. That's flat embarrassing. Now, the National Park 
Service can't even manage what it has in its own front yard in 
Washington, D.C., yet it expects the American people to trust 
that it can manage hundreds of millions of acres spread across 
the furthest and farflung reaches of the American continent.
    On top of this $11.5 billion heap of mismanagement and 
neglect, the administration continues to pile on millions of 
more acres of lands to the problem through the National 
Monument Declarations using the Antiquities Act.
    Certain special interest groups have been pushing for the 
President to circumvent Congress and to move 1.7 million acres 
in Northern Arizona out of successful management agreements by 
other Federal, State and private entities and into the Park 
Service's service as the Grand Canyon Watershed National 
Monument. Their intentions are clear. They want this 
designation in order to prevent hunting, mining, timber 
harvesting, and grazing on this massive swath of land, even if 
it means heaping more acres onto the queue of mismanaged 
projects within the National Park Service.
    Now, Director Jarvis, do you think it is wise to be adding 
millions of additional acres to the Park Service's already 
burdened management structure when such lands are currently 
successfully overseen by other State and Federal agencies?
    Mr. Jarvis. I think that the Park Service in its history 
has always grown both by act of Congress and by the act of the 
President. I am a fiscal conservative and I do not like taking 
on new responsibilities to the National Park Service that 
impact our financial house.
    Mr. Gosar. Well, then, let's get specific then. So is the 
administration currently working on designating a new national 
monument in Arizona?
    Mr. Jarvis. That is a power of the White House. That is not 
part of my responsibility.
    Mr. Gosar. Well, let's get down to the dirties here. So 
let's be more specific. Have you been approached in regards to 
the Grand Canyon Watershed National Monument by the 
administration?
    Mr. Jarvis. Not by the administration. Advocates have 
approached me on it, yes.
    Mr. Gosar. Okay. Any other areas in Arizona?
    Mr. Jarvis. No, not that I remember.
    Mr. Gosar. Okay. Let me be more specific. How about the 
Sonoran and Southeast and Western Arizona?
    Mr. Jarvis. No.
    Mr. Gosar. How about Sedona?
    Mr. Jarvis. No.
    Mr. Gosar. Okay.
    Mr. Jarvis. No, sir.
    Mr. Gosar. My office currently has a FOIA request at the 
Department of Interior regarding this proposal and the 
coordination between land agencies and environmental groups. 
Will that request collaborate the information you shared here 
today?
    Mr. Jarvis. It will for the National Park Service. I cannot 
speak for the rest of the department.
    Mr. Gosar. Okay. Director Jarvis, you and your agency 
mismanaged funding opportunities already right in front of you. 
You can't even maintain the infrastructure in your own 
backyard. The Arlington Memorial Bridge is only 2,000 feet long 
and it's falling apart. You should not be handed over millions 
of more acres via the Antiquities Act just to lock up in your 
agency's abysmal management. You may think that the National 
Park has the capacity to control even more public land, but I 
have a list of 11.5 billion reasons why you are wrong.
    Now, you said you were a conservative in that regards. You 
know, going back to the gentlelady from the Virgin Islands, 
doesn't your appropriation process, doesn't it show a lack of 
leadership by making sure that the proper processes are 
appropriated and funded?
    Mr. Jarvis. No, sir. We make a request every year for 
appropriations to meet our needs and we get about half of 
what's----
    Mr. Gosar. Oh, no, no, no. Let's go back. I mean, the 
gentlelady actually said the money actually went to those areas 
and they go to the West. Why aren't they being appropriated to 
the proper protocols and having the proper oversight?
    Mr. Jarvis. Well, I'm not aware specifically. We're talking 
about YCC money versus maintenance backlog funding? Sir, we 
have an $11 billion backlog in maintenance because we only get 
about half annually what we need to keep up.
    Mr. Gosar. And you tell me that there's no inadequacies 
within your process of oversight in adjudication of those 
moneys?
    Mr. Jarvis. We are putting every dollar we have as a 
priority into our maintenance backlog, including our roads and 
bridges, through the Federal transportation bill, but we did 
not receive adequate funding in the Federal transportation bill 
to address the backlogs of even one bridge, the Arlington 
Bridge.
    Mr. Gosar. I thank the gentleman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I do appreciate this 
hearing.
    I do want to say, especially considering that I'm a former 
chair of the Equal Employment Opportunity Commission, it 
distresses me to hear that the Park Service has what appears to 
be a systemic problem of sexual harassment. It does seem to me 
it calls for action at the highest level, not simply to process 
complaints and make sure they are handled fairly. And I hope 
you will take that as your mission.
    It's interesting that my colleague asks about the Arlington 
national bridge--I was certainly going to ask you about that--
and then chastises you for not funding. I mean, how can 
Congress really do this? The Park Service--the bridge, the 
Arlington Memorial Bridge, that is used to go to Arlington 
Cemetery. It is also the gateway from the south. That bridge 
alone needs to be rebuilt. The cost will be $250 million. 
Everybody in this region is trying to get that money, $250 
million, and yet the Park Service has appropriated by this 
Congress in the FAST act, the last bill, $268 million for 4,500 
miles of unpaved roads, 1,400 bridges, and I haven't exhausted 
the list.
    It is time that Congress stopped beating up on agencies 
when the Congress itself is at the root of the problem. You put 
$268 million in for the entire country and then you beat the 
Park Service about the head and shoulders for not keeping the 
Memorial Bridge up. My goodness, it takes a lot of nerve not to 
look at ourselves and see where the problem also is. The 
Arlington Memorial Bridge is not a case of mismanagement. It's 
a case of no funds to rebuild it.
    Now, Mr. Jarvis, the Federal Highway Administration says 
it's going to close this bridge that leads to the Arlington 
Cemetery within 5 years if it's not rebuilt. Do you think it 
will last 5 years? It gives you 5 years to rebuild the bridge. 
You've already shut down some traffic on the bridge. How much 
longer does this bridge--is it one of the older of the busiest 
bridges in your inventory?
    Mr. Jarvis. We have a lot of old bridges throughout our 
inventory, but this is the most expensive and most complicated 
and highest-use bridge in the National Park System, so it is 
our number one priority. It was our number one priority in the 
reauthorization to the transportation bill in terms of request 
for funds for these kinds of high-profile projects that are in 
serious condition.
    Based on the Federal Highway Administration's engineering 
assessment, which was being done regularly, that the bridge is 
subject to imminent closure in 2021, but we did do some 
emergency stabilization on it with Federal Highway so it will 
last until 2021.
    Ms. Norton. Director Jarvis, with a lot of work with the 
Senators from this region, we were able to get an application 
in. Will that fully fund the bridge, and if not, where will the 
money come from?
    Mr. Jarvis. So we are--thank you, it was the District of 
Columbia that cosigned our application. That was a requirement 
and that was really what all of the effort was, was to get 
either the Commonwealth of Virginia or the District of Columbia 
to cosign----
    Ms. Norton. And mind you, this is a Virginia bridge, but go 
ahead.
    Mr. Jarvis. I'll let you debate that with the Virginia 
Congressman.
    Ms. Norton. And Senator Warner was very helpful.
    Mr. Jarvis. And you're all very helpful. And ultimately, we 
did get an application in and we are currently discussing with 
the Federal Highway Administration a schedule for repair to 
this bridge that we'll----
    Ms. Norton. Where will the rest--how much funds--there's an 
application in to the Park Service. What will that fund and 
will that take care of it; and if not, where will the rest come 
from?
    Mr. Jarvis. I do not know how much the Federal Highway is 
willing to put up for this bridge. There are various scenarios 
based on how much they can put up annually. There's a lot of 
applications out there for this money all across the country 
with a lot of bridges. As you know, the infrastructure in our 
Nation has a lot of challenges. So there's a lot of 
competition, but I do think we have a very strong commitment 
from the Federal Highway Administration to work with us to come 
up with a schedule that will repair the bridge and minimize the 
impact of traffic. But I don't have the hard numbers yet. They 
haven't made the decision.
    Ms. Norton. I wish you would get this committee, please, 
Mr. Jarvis, the latest numbers on the funds, where they will 
come from, and whether there will be any shortfall.
    And thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I think it's clear that the National Park Service, 
certainly under the direction and action of Director Jarvis, is 
desperately in need of some oversight. Being a member of the 
Natural Resources Subcommittee on Oversight and Investigations, 
we actually had a hearing last month on this very subject. And 
I want to thank Ms. Kendall for being a part of that and for 
being back here today.
    Director Jarvis, in your testimony you stated that you were 
held accountable for the book deal where you wrote it without 
approval from the Ethics Office. And your punishment is, as I 
understand it, monthly ethics training for the remainder of 
your duration. Is that correct?
    Mr. Jarvis. Yes, sir, that's one component.
    Mr. Hice. Okay. I think that's--personally, I don't think 
that goes far enough, but that's not going to be the point of 
my questions here. You stated that you have been held 
accountable for the book debacle. But we also have seen, in the 
hearing today, other problems throughout the National Park 
Service in Yellowstone, in the Canaveral Seashore, in Grand 
Canyon River District, sexual harassment and other issues. And 
these individuals were allowed to retire or they were 
transferred.
    You stated the need for people to be held accountable for 
their actions. Do you believe that these people have been held 
accountable for their actions?
    Mr. Jarvis. I believe we are following the regulations 
related to Federal employees and we are applying appropriate 
discipline. If they are eligible to retire, then they can do 
that at their----
    Mr. Hice. So you think it's appropriate discipline?
    Mr. Jarvis. Yes, sir, I do.
    Mr. Hice. Okay. Ms. Kendall, let me ask you, do you believe 
it's appropriate discipline?
    Ms. Kendall. It's hard to say whether it's appropriate. I 
think it's more the appearance. I would use as an example, the 
chief ranger who was then demoted, as I understand it, in terms 
of grade, but took the position of superintendent, which by 
appearances anyway, seems to look like it was more promotion 
than demotion.
    Mr. Hice. All right. Yeah, I mean, we've got people who, I 
mean, egregious behavior, sexual harassment, for example. Would 
you say that this is a pattern in the National Park Service?
    Ms. Kendall. I don't have the data to say it's a pattern, 
but it's certainly a concern.
    Mr. Hice. Back to you, Mr. Jarvis. When we hear that 
employees who engage in misconduct or mismanagement are not 
held accountable, and that is precisely what we hear, when we 
hear that, it sounds like leadership actually condones 
misbehavior at the Park Services. How do you think this affects 
morale?
    Mr. Jarvis. Well, actually, I think the fact that I am 
being disciplined sends a message that no one is exempt in this 
agency. And I think that employees are being disciplined. 
Appropriate action, in accordance with the rules and 
regulations that govern Federal employees, are being applied 
appropriately throughout the system.
    Mr. Hice. Discipline and punishment is one thing. Hand 
slapping is another. I would hardly call what's taking place as 
discipline.
    Ms. Kendall, back to you. In recent cases of misconduct 
that you've investigated, how many people have been fired?
    Ms. Kendall. I'm not aware of--I'm not aware of any that 
have been fired, sir.
    Mr. Hice. All right. So they are retired, perhaps, but not 
fired?
    Ms. Kendall. Perhaps.
    Mr. Hice. Perhaps. But you're not aware of any who have 
been fired.
    Director Jarvis, do you find this disturbing?
    Mr. Jarvis. I find that it's--it is the system in which we 
live. Firing a Federal employee is very, very difficult.
    Mr. Hice. That's not my question. That's not my question. 
Is it disturbing that people who are engaged in this type of 
misbehavior, is it disturbing to you that they're not being 
fired?
    Mr. Jarvis. Their behavior is extraordinarily disturbing to 
me, but I am a Federal employee. And I understand the rules and 
regulations that apply to them and, frankly, I don't have the 
power, in most cases, to fire these employees.
    Mr. Hice. All right. You still didn't answer my question. 
It's disturbing to us, too, the behavior, but it's also 
disturbing that they're not being fired.
    Real quickly, is there--Ms. Kendall, are you aware of NPS 
employees who are afraid to report misconduct?
    Ms. Kendall. I'm not specifically aware of precise NPS 
employees that are afraid of reporting misconduct, but I do 
believe that across the Park Service and throughout the 
department there is some fear by employees to report 
misconduct.
    Mr. Hice. Why would people be fearful, Director Jarvis? And 
I'll close with this.
    Mr. Jarvis. Well, I think that it's--I don't believe it's 
fear. I believe that they don't think action will be taken. And 
I think that what you're seeing today with these reports--and I 
appreciate the reports from the Office of Inspector General--
and the actions that we're going to take and are taking, we are 
going to see more reporting. Actually, I think we're going to 
get more people to be willing to step up because they're seeing 
management actually taking action.
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Chaffetz. Will the gentleman yield before he 
yields back with the indulgence here?
    Mr. Hice. I'd be happy to yield.
    Chairman Chaffetz. Mr. Uberuaga, what happened to him? Did 
you discipline him?
    Mr. Jarvis. Mr. Uberuaga was going to be subject to 
discipline. We were preparing a disciplinary action for Mr. 
Uberuaga for his omission of action based on the reporting in 
2013. In consultation with the regional director for the 
Intermountain Region, who is his line supervisor, and the 
deputy director for operations here in Washington, who's the 
line supervisor for the Intermountain Region, the three of us 
unanimously agreed the Grand Canyon needed new leadership 
immediately, that Mr. Uberuaga was incapable. Even though he 
has performed well on other issues, he was incapable of leading 
the change we needed in the Grand Canyon.
    So as a senior executive, he is subject to being 
transferred, and I told him I was transferring him out of the 
Grand Canyon immediately and he chose to retire.
    Chairman Chaffetz. So you did offer him a position, another 
position?
    Mr. Jarvis. I did.
    Chairman Chaffetz. Okay. The gentleman yields back. I will 
now recognize the gentlewoman from New Jersey, Mrs. Watson 
Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I really 
don't know where to begin here because the picture that seems 
to be painted from the discussion and from the questions and 
answers is that this is a dysfunctional organization with very 
little accountability and not very good leadership.
    I want to ask you a couple of questions regarding the Park 
Service as an employer. What percentage of women and minorities 
do you have employed in the Park Service? You have 22,000 
employees, I think you said? What percentage of them are 
minorities and what percentage of them are women?
    Mr. Jarvis. I don't have that data in front of me. I'd be 
glad to get it to you. I would say in terms of women--I'm just 
roughing it here, I don't know specifically off the top of my 
head--but we're probably 55 percent male, 45 women. And I think 
in terms of representative minorities, we are significantly 
low. We do not represent the demographic of the Nation. And I 
will be glad to get you the hard statistics, though.
    Mrs. Watson Coleman. So you're the director. Is that your 
title? What is your title exactly?
    Mr. Jarvis. Director.
    Mrs. Watson Coleman. Director. And under you are there a 
series of deputy directors or assistant directors?
    Mr. Jarvis. There are two deputies. Both of them are women.
    Mrs. Watson Coleman. And under them?
    Mr. Jarvis. There are seven regional directors that serve 
in the field and that--and then we have associate directors 
here in Washington for specific programs.
    Mrs. Watson Coleman. Are you familiar with the requirements 
of EEOC in terms of the development of a plan and the 
responsibility and accountability for the implementation of 
that plan?
    Mr. Jarvis. Yes, ma'am. I am very familiar with both the 
recommendations of EEOC in terms of a model program and how to 
implement it.
    Mrs. Watson Coleman. Who in your organization is 
responsible for that?
    Mr. Jarvis. Our associate director of human resources.
    Mrs. Watson Coleman. And to whom does that person report.
    Mr. Jarvis. To the deputy director for operations.
    Mrs. Watson Coleman. So is that in violation of the 
guidance from EEOC? Is that not supposed to be a function that 
reports directly to the director?
    Mr. Jarvis. The EEOC model program definitely recommends 
that the EEO office report directly to the director.
    Mrs. Watson Coleman. And so why is that not the case with 
you?
    Mr. Jarvis. Well, when I came on in 2009, it was actually 
buried three levels below that. We moved it up to directly 
report. But I agree with you, that I think that it should be 
moved to report directly to the director of the National Park 
Service. And that's an action we're going to take.
    Mrs. Watson Coleman. What kind of training and management 
development do your--does your staff generally and routinely 
get? How do they get informed about the laws? How do they get 
informed about creating culture that would discourage sexual 
harassment or any other kind of discrimination? What is it 
that's done proactively, routinely, and sustainably that would 
help to create a better climate there?
    Mr. Jarvis. So when I came on in 2009, I actually created 
the first program for relevancy, diversity, and inclusion in 
the history of the National Park Service. I specifically 
gathered individuals through the organization that represent 
the diversity of our Nation, creating the Allies for Inclusion. 
And they have been working directly with the leadership of the 
National Park Service to help us create an inclusive workforce, 
one that reflects the diversity of the Nation and has a work 
environment that is supportive of diversity, that being ethnic 
diversity, sexual orientation, women, young people, you know, 
the whole range. And so we use that information both to 
communicate. I've done a number of Web chats, specific videos 
out to the field on EEO, on inclusion, and diversity as well.
    Mrs. Watson Coleman. Thank you. Director Jarvis, the 
information that I have is that the EEOC function or 
functionary still reports three levels below you. So when did 
you actually--did you change that reporting level and when?
    Mr. Jarvis. I moved it up. No, it does move--it has been 
moved up. But I agree with you, and this is an issue that I've 
discussed with our HR, that I believe that in order to really 
meet the standards expected of us in EEOC, and particularly in 
light of these new issues that have come out, that clearly 
there is the potential for sexual harassment to occur in other 
pockets in the National Park Service. I think EEOC--or the EEO 
office needs to report directly to me, and to meet the 
standards which are regular reporting to me and to the 
leadership, having advocates that represent the diversity of 
the Nation, and a regular understanding at the senior 
leadership about these issues. So I think there's change afoot.
    Mrs. Watson Coleman. All right. May I just bring something?
    Chairman Chaffetz. Sure, go ahead.
    Mrs. Watson Coleman. The report that was submitted for 2015 
indicates that the--each region has an EEO manager that reports 
to a regional director and that the EEO director is under the 
third-level reporting structure. So I think that maybe there's 
a lack of communication within your organization as to who 
reports where, which is sort of a red flag that we have some 
serious problems with accountability and responsibility there.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    I will now recognize the gentleman from Texas, Mr. Hurd, 
for 5 minutes.
    Mr. Hurd. Thank you, Mr. Chairman.
    The national parks are awesome. I have the pleasure of 
representing seven. I get to represent Big Bend National Park, 
which is headed by an amazing superintendent and she really is 
a treasure for the Federal Government. You all have a hard task 
to make sure that these jewels of our Nation are around for 
future generations and that future generations continue to 
interact with them in the ways that past generations have.
    It's been a real pleasure, over the last 17 months that 
I've been in Congress, when I crisscross the district and talk, 
you know, throughout the country about encouraging Americans to 
find their park or his or her park. This is an important 
resource for our country. It's unfortunate that we're here 
today talking about sexual harassment, poor culture of 
management. And my question, my first question to you, Director 
Jarvis, is--and it's to piggyback on what my friend and 
colleague from New Jersey has been talking about. What steps 
are being taken to ensure there's zero tolerance for sexual 
harassment within the National Park Service?
    Mr. Jarvis. Well, clearly, zero tolerance was not the 
standard at the Grand Canyon or at Cape Canaveral--Canaveral 
National Seashore, and that's just unacceptable. We at the 
senior leadership, a discussion that I led in May, and this is 
the regional directors, the associate directors, and the senior 
superintendents of the organization, had a very open and 
emotional discussion about zero tolerance and why this agency 
has tolerated it.
    Mr. Hurd. So what are you doing? What are you doing right 
now? What steps, what concrete steps have been taken to ensure 
this culture changes?
    Mr. Jarvis. So the first thing that we feel, as recommended 
by the Department of Defense, is a prevalent survey. And that 
is to get baseline understanding of whether or not or how much 
harassment is occurring in the workplace in the Service. So 
getting that survey done. We've committed to doing that by a 
third party as soon as possible. I can't give you a specific 
date because we have to go through a contracting process to get 
there. But that's the first step to--we have reinforced a 
message to the field on zero tolerance and I think we're making 
very public the actions we're taking at the Grand Canyon, in 
particular about disciplinary actions and expectations of 
behavior to meet the zero tolerance policy.
    Mr. Hurd. So, Director Jarvis, in your opinion--I know 
you're getting ready to do a survey--in your opinion, what 
allowed this kind of culture to seep in in these two parks that 
we've been talking about today?
    Mr. Jarvis. I think one was the conditions of the 
particular activity create an environment that vulnerable 
individuals can be preyed upon, so this is an area that the 
Department of Defense has made some--within Defense, they have 
sort of a special unit. In the Park Service, we have what we 
would call special units: River Districts, fire crews, trail 
crews. These are places where individuals are thrown together 
in a tough environment and the potential is there.
    So this is an area we're focusing on particularly right 
now. And we've made management aware across the system that 
these are areas that you need special attention. We have to 
create an ombudsman, an individual that--individuals that are 
subject to this harassment can call safely. I mean, if it's 
your supervisor that is harassing you, that's a bad reporting 
chain if you have to report this to the person that's actually 
harassing you.
    So we've created the opportunity for, outside of that, to 
be able to report this issue so that we can get to--and if we 
find it, we're reporting it to the IG and saying, we need to go 
in and investigate.
    Mr. Hurd. Well, you mentioned the fire crews. I also 
represent Guadalupe Mountains National Park. I know that's a 
place where you served with over, at one point, over 14,000 
acres on fire. And what those fire crews are doing is heroic 
work.
    And, Ms. Kendall, my last 30 seconds to you, what types of 
steps should be taken by the National Park Service to address 
the poor culture of management and the lack of accountability 
and leadership?
    Ms. Kendall. Well, I think holding individuals accountable 
for misconduct. Mr. Jarvis is correct in that you cannot always 
make public how discipline is imposed, but doing that, doing it 
regularly--I mentioned progressive discipline, documentation. 
It's something that can be done and if it's done properly, it's 
very effective.
    Mr. Hurd. I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now go to the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman, and Ranking Member 
Cummings. The deputy--this question is to you, Director Jarvis. 
The Deputy Secretary of the Interior reviewed the IG's finding 
and issued a memo concluding, and I quote, ``The Department has 
reviewed the report of investigation carefully and come to the 
conclusion that Director Jarvis did violate Federal employee 
ethics standards.''
    Do you agree with that statement?
    Mr. Jarvis. Yes, ma'am, I do.
    Mrs. Lawrence. When asked by the inspector general, ``if,'' 
looking back, you, ``would have done--would you have done 
anything differently?'' You replied, ``Would I have done the 
same thing? Probably. I think I knew going in that there was a 
certain amount of risk.''
    Why would you say that? That makes it look like you didn't 
care about the ethic rules.
    Mr. Jarvis. Well, let me apologize for that. I was 
absolutely wrong in that statement.
    Mrs. Lawrence. On May 27, you sent an email to all Park 
Service employees that said, and I quote, ``I failed to 
initially understand and accept my mistake. That was wrong.''
    What part of the mistake did you initially fail to 
understand, and what happened between your interview with the 
IG when you said you would probably do the same thing again and 
then on May 27 in your email that you stated that you were 
caused to accept that you had made a mistake. Can you walk me 
through that? What changed?
    Mr. Jarvis. Well, one of the requirements under my 
disciplinary action is that I receive ethics training. And I 
have been spending that time with the departmental ethics 
office. And I have to say that I've developed a much deeper 
understanding and respect for and appreciation for the work of 
the office of the department of ethics. And I think that has 
resulted in me reconsidering and rethinking my position on this 
and saying that I was completely wrong and in doing so, 
violated the ethics standards for the Department of Interior, 
and I apologize for that.
    Mrs. Lawrence. Sir, how long have you been the director?
    Mr. Jarvis. Since 2009.
    Mrs. Lawrence. And are you saying on the record today that 
from 2009 until your ethics training, you were unaware of the 
requirements, the ethical requirements of your job?
    Mr. Jarvis. No, ma'am. I served as the National Park 
Service ethics officer and I was well aware, but not at the 
level of detail that I have now.
    Mrs. Lawrence. That's a very hard pill to swallow. If 
you're training others and you're not aware of what your 
ethical responsibilities were, how could you train others and 
be responsible for it and not be personally aware?
    Mr. Jarvis. So in the execution of the book, I thought I 
was following all of the ethical standards that are required of 
me. I was using a source that the Park Service normally uses. I 
was not personally benefiting. I was doing it on my own time. 
All of those were the ethics requirements. What I did not do 
was seek the advice of the ethics office, which would have 
clarified my mistakes right up front. And that was the ethics 
issue.
    And I think that that--the discipline that I have received 
is appropriate to the action. And I think I've been open about 
my mistakes to everyone that has been involved.
    Mrs. Lawrence. We all are human and make mistakes, but we 
are also hired to do a job that requires us, especially in 
leadership positions, to set an example. I'm disappointed that 
your understanding, especially based on your previous 
requirements in this Federal agency, did not allow you the 
depth of understanding and your failure to meet the ethical 
requirements.
    I yield back my time.
    Chairman Chaffetz. Before the gentlewoman yields back, 
would she yield to me for a second?
    Mrs. Lawrence. Yes, sir.
    Chairman Chaffetz. Director Jarvis, the problem I have with 
the answer that you think you were dealing with the highest of 
ethics in this particular--with the book deal, is the 
documentation shows the opposite. You sent a letter or an email 
to the person that would be the publisher. There's a followup 
email asking for the conversation because, essentially, you 
knew that you had to have them ask you to do it as opposed to 
what really happened was you told them that you wanted to 
publish the book. And you compounded the problem ethically by 
writing a handwritten note to the secretary assuring her that 
it was of the highest ethical standards by saying it was 
reviewed by ethics and that they had asked you to do it, which 
was a lie.
    This wasn't an innocent mistake. It was a pattern. It was 
deceptive, and I think you knew that you were creating an 
ethical problem. And as you said, I think candidly to the IG, 
I'm willing to take that risk. I many, many, many times have 
had these types of problems. I believe you when you write that. 
But the pattern, the documentation that Ms. Lawrence is talking 
about is clear. You asked them to do this. They sell millions 
of dollars worth of stuff through the parks. They need you. You 
had a telephone conversation and then they sent you a letter 
saying, oh, yes, this is what we need from you. That's a 
pattern and it's unethical.
    I yield back.
    I now recognize the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair. Well, forgive me if I have 
a dissenting voice here. I'm not quite sure what the tempest is 
in the teapot with respect to the book.
    Ms. Kendall, so Director Jarvis wanted to surreptitiously 
publish a book and benefit from it. Is that correct?
    Ms. Kendall. That's my understanding, yes, sir.
    Mr. Connolly. Surreptitiously benefit?
    Ms. Kendall. Oh, I'm sorry.
    Mr. Connolly. Please speak up. We can't hear you.
    Ms. Kendall. I'm sorry. What was your question?
    Mr. Connolly. My question was, your finding is Director 
Jarvis deliberately and surreptitiously engineered the 
publication of a book that he surreptitiously wrote in order to 
benefit surreptitiously personally.
    Ms. Kendall. I don't believe that we concluded that he 
would benefit personally.
    Mr. Connolly. No, you didn't. He benefited not at all.
    Ms. Kendall. That's correct.
    Mr. Connolly. His motivation was to help the Park Service 
on its centennial. Is that correct?
    Ms. Kendall. I believe so.
    Mr. Connolly. Well, what a crime. What a terrible thing for 
the head of the Park Service to want to promote the Park 
Service on its 100th anniversary. And ethically, we are going 
to what? Burn him at the stake and destroy his reputation? 
Because, all right, some rules were put aside. They were put 
aside, if I understand it correctly, because there was a 
deadline we were approaching and he had some legitimate concern 
about that deadline, that if we didn't kind of expedite it, it 
wasn't going to happen, because no one else was doing it. Fair 
enough?
    Ms. Kendall. It was a self-imposed deadline, if it was a 
deadline.
    Mr. Connolly. Well, the centennial is not a self-imposed 
deadline. What's a centennial?
    Ms. Kendall. You're right.
    Mr. Connolly. Right. That's what was on his mind. He wasn't 
going to benefit from this. The proceeds, he dedicated to the 
Park Foundation. You know, I must say to my colleagues, it's--
we might walk a little humbly in the face of the Lord when 
we're a body that's been accused individually of sexual 
harassment. We've had charges brought against members, 
including of this committee. We've had people involved in book 
deals. Brought down two Speakers. Doesn't make it right. Of 
course, everyone should follow the strict letter of the law.
    But I will say, my own experience in this body dealing with 
an Ethics Committee is rules can be very arbitrary. And there 
are two approaches to life. One is a commonsense kind of work-
it-through approach, and the other is a very juridical, law-
driven, rule-driven approach to life and religion and politics. 
The latter may be a comfortable fit for some, but it's not 
really a practical approach to life.
    Sexual harassment's a different matter. But I have to say 
with respect to the book thing, shame on everybody for making 
it such a big issue. I don't think it is.
    And, Director Jarvis, I'm sorry you have to even put up 
with that, frankly. Maybe you made some mistakes, maybe you cut 
some corners, but the motivation, to me, was to try to help the 
Park Service. And I don't share my colleagues' outrage or faux 
outrage about it.
    Now, sexual harassment's a different matter. And I've got 
to ask you, Director Jarvis, when did you become aware of the 
fact there was a problem with sexual harassment at Canaveral 
and at Grand Canyon?
    Mr. Jarvis. So in the Canyon case, I became aware upon the 
letter that was sent to the Secretary of the Interior that 
initiated the----
    Mr. Connolly. You were unaware of any problem prior to 
that?
    Mr. Jarvis. Absolutely unaware.
    Mr. Connolly. And when was that? Give me just a date. 
Quickly.
    Mr. Jarvis. I forget the exact. It was 2014.
    Mr. Connolly. Okay, 2014. Was that before or after 
Superintendent David Uberuaga was appointed the superintendent 
of the Grand Canyon?
    Mr. Jarvis. It was after. He'd been there for about 4 
years.
    Mr. Connolly. All right. So that was the sequence. You 
confirmed that, Ms. Kendall?
    Ms. Kendall. Yes, sir.
    Mr. Connolly. And, Ms. Kendall, when it was brought to 
Director Jarvis' attention there was a problem, did he take 
action? Did he ignore it? Did he punish whistleblowers? Did he 
punish alleged victims?
    Ms. Kendall. We received a request directly from the 
secretary in response to those letters and we undertook the 
investigation at the secretary's request.
    Mr. Connolly. But was there any--I'm asking a different 
question. Was there any evidence that Director Jarvis covered 
up, was complicit, turned a blind eye, ignored these 
allegations?
    Ms. Kendall. No, sir.
    Mr. Connolly. None. I thank you. My time is up.
    Chairman Chaffetz. We'll go to the second round. I'm now 
going to recognize myself for 5 minutes.
    Director Jarvis, you write in your testimony and you've 
said that you have zero tolerance for sexual harassment. What 
does that mean, ``zero tolerance''?
    Mr. Jarvis. It means that when sexual harassment is 
identified within the organization at any level, that there is 
an immediate response not only to the perpetrators, but also to 
the victims of it; that we--that zero means zero.
    Chairman Chaffetz. Does it mean you recommend that people 
be fired?
    Mr. Jarvis. Again, Chairman, these are Federal employees, 
and jumping to firing is not an option that I have under the 
current laws of civil service.
    Chairman Chaffetz. You can make the recommendation. You can 
push for it. You can--can you not?
    Mr. Jarvis. I'm subject to those same laws just like any 
other manager. I can't say ``fire that employee,'' because that 
violates the whole Title 5 rights. There's a process we have to 
go through.
    Chairman Chaffetz. I understand they need to go through a 
process, but your recommendation does have some weight, does it 
not?
    Mr. Jarvis. It definitely has weight in terms of that we 
have zero tolerance and that disciplinary action----
    Chairman Chaffetz. So what does that mean, zero tolerance? 
It doesn't sound like it means anything. We're not going to 
tolerate that. Just don't keep doing it.
    So when you have an allegation of multiple sexual 
harassment issues happening, I want to know what you're doing 
about it.
    Mr. Jarvis. We are aggressively pursuing appropriate 
disciplinary action.
    Chairman Chaffetz. I want to know what you think 
appropriate disciplinary action is for sexual harassment.
    Mr. Jarvis. I think removal is one of those very much 
possible options, and it is definitely on the plate.
    Chairman Chaffetz. So when did you make those 
recommendations, either in the case of the Grand Canyon or in 
the Canaveral situation? Did you make any of those 
recommendations?
    Mr. Jarvis. I have not made those recommendations as yet. I 
have not been----
    Chairman Chaffetz. How many women does it take? I mean, 
we've got dozens. So at what point do you make a recommendation 
that somebody be fired? How many times does somebody have to be 
sexually harassed for it to get on your radar screen to say, 
you know, enough is enough. Now we're going to recommend 
firing?
    Mr. Jarvis. When the line supervisor for these employees 
brings to me the details of their proposed disciplinary action, 
I will at that time make my recommendation on what should be 
done.
    Chairman Chaffetz. In none of the cases regarding sexual 
harassment in these two scenarios did you ever recommend 
somebody be fired?
    Mr. Jarvis. The process for their discipline is incomplete 
at this point, so I have not made a recommendation that anyone 
be fired.
    Chairman Chaffetz. And that's the heart of the problem. 
That's the heart of the problem.
    Let me go back to this. I want to read this. This is from 
the testimony from Ms. Kendall, okay, the inspector general. 
We're talking about the Canaveral National Seashore.
    ``The chief ranger was disciplined for the procurement 
violation, but of particular concern was that in 2015, the 
chief ranger publicly disputed the media story about a former 
Canaveral Park employee who had provided information to the OIG 
about allegations of improper hiring and procurement 
irregularities. We had substantiated those allegations and we 
reported our findings to Director Jarvis in 2012, but he is yet 
to respond to our office. To date, National Park Service has 
also taken no action to address the chief ranger's unbecoming 
conduct.''
    Chairman Chaffetz. Is that true or false?
    Mr. Jarvis. You're asking me?
    Chairman Chaffetz. Yeah, to you. You're the director, yes.
    Mr. Jarvis. Sorry. I thought you were asking----
    Chairman Chaffetz. No. She wrote. I mean, I'm reading what 
she wrote, is that they provided you the findings in 2012 and 
has yet to respond to her office.
    Mr. Jarvis. These local park issues are referred to the 
regional director.
    Chairman Chaffetz. So when you get an OIG report and you're 
referring it down to the person who created the problem, the 
chief ranger and the superintendent, right?
    Mr. Jarvis. No. To the regional director, not to the park 
superintendent.
    Chairman Chaffetz. Okay. So you give it to the regional 
director, kind of wash your hands of it, but there's no 
response. Doesn't that get on your radar? Isn't that something 
you're worried about that?
    Mr. Jarvis. I'm worried about that. I don't know why there 
was no response.
    Chairman Chaffetz. But they got no response.
    Did you get a response, Ms. Kendall?
    Ms. Kendall. To my knowledge, no.
    Chairman Chaffetz. So you don't even respond to it.
    Let me go on. Last week, again, we, being Ms. Kendall, 
issued a report to the National Park Service on a pattern and 
practice of sexual harassment by the same chief ranger who 
continues to serve in that position despite three substantiated 
allegations against him in less than 2 years.
    She says: The National Park Service has not had time to 
respond to this most recent report, but with three other 
reports in 4 years, this is a profound example of leadership 
problem that the National Park Service has failed to address at 
multiple levels.
    What would you disagree with in her assessment there?
    Mr. Jarvis. We have taken action on the individual at Cape 
Canaveral. His commission has been removed and he's been 
removed from the position of chief ranger.
    Chairman Chaffetz. When did that happen?
    Mr. Jarvis. I do not know the exact date.
    Chairman Chaffetz. I mean, has it been in the last couple 
of weeks?
    Mr. Jarvis. No. I don't know, honestly. I can get back to 
you, but I do not have that----
    Chairman Chaffetz. We're having a hearing about this. I 
mean, it's in her written testimony. You don't know the 
disposition of this person?
    Mr. Jarvis. I know that his commission's been removed. 
That's all I know.
    Chairman Chaffetz. When his commission's removed, does he 
still work there?
    Mr. Jarvis. He is still employed.
    Chairman Chaffetz. Where?
    Mr. Jarvis. At Canaveral.
    Chairman Chaffetz. So there's--how many sexual harassments 
does it take to fire a Federal worker or even at--get to your 
point where you can recommend somebody being fired?
    This is a group of 50 people. There's three substantiated 
allegations and he still works there. The guy should be 
arrested. He should probably be in jail. He should at least be 
fired and you should at least try to fire him, but you don't do 
any of that.
    What does that say to the women there? How would you look 
them in the eye? Hey, I got two daughters about to enter the 
workforce. I got a daughter and a daughter-in-law entering the 
workforce, and I don't want them to go and deal with the scum 
that is in your department and your agency, because that sexual 
harassment as a percentage of the workforce is so detrimental. 
And I put it on your shoulders to hold those people accountable 
and at least try, at least go down fighting. At least let them 
know, you know what, I've got your back. Because sexual 
harassment, it ain't going to stand in my department and my 
agency. But I don't see any of it. Like, I don't know. I have 
no idea. And you've had dozens of situations and you've made no 
recommendations to try to do that. So don't complain that the 
system is failing you. You're failing the system. Your 
leadership is lacking.
    My time's expired.
    I recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    You know, I want to just go back for a moment to my friend, 
Mr. Connolly's comments. And I want--I don't want you to 
misunderstand--and I was hoping that he would stay around for 
minute. I know he has another hearing.
    The problem is not so much the book. You know, my pastor 
has a saying. He says: It's not what you do, it's what you do 
says about you. And it seems to me that you really had an utter 
disregard for the ethics rules. It's not so--you know, I can 
understand you're trying to get the book out, but when you talk 
about, you know, you don't mind taking the risk, and that's how 
you--I mean, I think you kind of laid it out very nicely. This 
is how you operate. You say you take a risk, you--and you'd do 
it again.
    And what--and I know you've come in and apologized this 
morning, and you apologized to your employees over and over 
again. But what do you think that says to employees? And there 
probably is a link when they see the top person in the agency, 
the very person who is supposed to be making sure they do the 
right things, and when they see you not doing the right thing, 
I mean, that has to affect morale. Would you agree?
    Mr. Jarvis. Well, let's--I think my employees know who I am 
and have emailed me hundreds of emails of support, because they 
look at me as a human being that makes mistakes, that I have 
owned up to my mistake. I've openly apologized and admitted 
that I was wrong. And I'm being disciplined openly, no hiding 
of that discipline to anyone, and that is being applied 
appropriately. So I think that it may affect some people from a 
morale standpoint, but I think that this is--I'm doing what I 
need to do as the director of the National Park Service to own 
up to my mistakes and apologize for them.
    Mr. Cummings. You know, in my other life before I became a 
congressman, one of the things that I did was I counseled and I 
worked with lawyers in disciplinary--when they had disciplinary 
problems. And we had lawyers who had stellar careers, stellar, 
and did one thing and got disbarred, never to practice law 
forever.
    So when you talk about employees knowing you and what a 
great guy you are, you know, but when you say things like, I 
think I knew going into this there was a certain amount of 
risk, I've never been afraid of the risk. I've gotten my ass in 
trouble many, many, many--you got three manys--times in the 
Park Service by necessarily--by necessarily getting--by not--
listen to what you said, by not necessarily getting permission.
    I mean, it's like--it's--and I'm trying--I'm really, 
really, really bending over backwards trying to, you know, give 
you the benefit of the doubt. But when somebody says, it's, 
basically, screw you. This is how I--this is how I operate. And 
then it makes me wonder, these people doing the sexual 
harassing--you said something else that really got the guy next 
to me, you said: It's not that the women are afraid. Their 
concern is that something will not be done about the 
harassment. Is that what you said?
    Mr. Jarvis. That's part of it, yes. I do believe----
    Mr. Cummings. Well, if a young lady is sitting there 
watching this right now, and she's thinking about coming into 
the Park Service, and she knows that what--this pattern, she 
knows that the top guy takes an attitude of, it's rules, what 
the hell, and doesn't see much happening, and she sees that 
happening over and over and over and over again, I mean, what 
does that say to them? I mean, if it was your daughter, I'm 
just curious, would you feel comfortable sending her to the 
Park Service?
    Mr. Jarvis. I think that--I do have a daughter who works on 
public health for women in Africa, and she is a very strong 
individual and probably watching this as we speak. And I think 
she would say that she would work for the Park Service because 
we are aggressively addressing this issue. This issue has come 
out, and it's incredibly disturbing to me that we have 
tolerated sexual harassment within our--within our 
organization.
    But I'll tell you this, the senior leadership, the senior 
women of our organization, are committed to rooting this out. 
It's not going to be easy and it's not going to be overnight. 
And, frankly, as we take this on aggressively, you're going to 
see more, more are going to come out. That's exactly what the 
Department of Defense told us, is that you're going to--as we 
aggressively pursue it, and women that have been harassed who 
have not been willing to speak out in the past will suddenly 
speak out and probably we'll be back in here saying, how come 
you've got now six cases or eight cases of harassment in the 
organization, and that's because we are aggressively pursuing 
it and individuals are finally feeling empowered and protected 
and willing to speak.
    And that's a commitment that I'm making and the senior part 
of my organization is also making, backing me up on this, that 
we are going to root this out of the National Park Service.
    Mr. Cummings. Ms. Kendall--and this is my last question--he 
just said that we're going to probably hear more cases because 
women are going to feel more empowered. Can you tell us, to 
your knowledge, whether you have confidence, based on what you 
know, that that would likely be the case?
    Ms. Kendall. I don't really have any basis to say yes or 
no, sir.
    Mr. Cummings. And your recommendations are what right now?
    Ms. Kendall. We did not make specific recommendations. We 
usually don't with our reports of investigation, except for two 
things that we did provide to the secretary and to Mr. Jarvis. 
One was to be careful about backgrounds of people that they 
hire, because they did hire back--or allowed back one of the 
perpetrators as a volunteer. The other was to handle internal 
sexual harassment investigations properly, which was part of 
the problem in the Grand Canyon cases. The initial 
investigation that they conducted internally did not--it did 
not proceed properly, and it was also handled improperly 
because it was allowed to be distributed to more individuals 
than needed to know about it.
    Mr. Cummings. Mr. Jarvis, you know, assuming you stay in 
the position, what can we do to hold your feet to the fire? 
What would you suggest? Because we've got a problem here. We've 
got--we have women who want to be treated properly. I don't 
want the norm to be you come in and you get harassed. That 
shouldn't be the norm. It seems like we're moving towards that, 
if we're not already there, from what you've described to me. 
You said there are more cases probably coming up.
    Well, how would you hold your feet to the fire? Because I 
think, you know, we have a duty too to our constituents to 
protect them. And, I mean, you're a nice guy but, you know, if 
people are coming into the workplace feeling threatened, I 
don't see how they can do their job properly if they're sitting 
there feeling afraid that somebody's going to say something 
improper to them or force them into a position that they don't 
want to be in.
    Mr. Jarvis. Sir----
    Mr. Cummings. So how do we hold your feet to the fire?
    Mr. Jarvis. Sir, I think that you hold my feet to the fire 
by requiring me to come back up here and meet with any 
individuals or group of individuals from this committee or any 
of the other committees that have jurisdiction and report to 
you specific actions that we are taking, both a timeline, 
individual actions and response through the rest of this year 
and the coming years.
    I mean, we have been getting, I think, excellent advice 
from the Department of Defense and the National Oceanic and 
Atmospheric Administration----
    Mr. Cummings. Have you been taking it?
    Mr. Jarvis. Yes, absolutely we have been taking it. We are 
actively engaged with them on this process. And I think you 
need to hold me accountable. You need to hold the agency 
accountable that--and we owe it to the women and the men of the 
organization that we create an inclusive workforce, a 
respectful and supportive and safe workplace for all of our 
employees. And we are absolutely committed to that and you 
should hold me accountable.
    Mr. Cummings. Do you have a plan? You have a plan, right?
    Mr. Jarvis. Yes, we do have a plan.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. Mr. Jarvis, Director, the IG, dealing 
with the chief ranger at Canaveral, sent you a report in 2012. 
I guess I just fundamentally don't understand why you can just 
dismiss that, send that off to your regional person to deal 
with. There's a reason why we have the inspectors general give 
them directly to either directors or cabinet secretaries so it 
could be on their radar screen, so they can take care of it.
    Let me read to you another thing that Ms. Kendall wrote in 
her testimony: Finally--this is, again, talking about 
Canaveral--the same superintendent, not the chief ranger but 
this time the superintendent, has been at Canaveral since 2010 
and was named a subject in our 2012 report to Director Jarvis.
    Are you familiar with that report?
    Mr. Jarvis. Yes, I am.
    Chairman Chaffetz. Did you read it when you got it in 2012?
    Mr. Jarvis. I don't remember.
    Chairman Chaffetz. Your employee that reported the 
allegations of misconduct, in her 2012 report, made additional 
allegations of reprisal that were founded by the Merit Systems 
Protection Board and resulted in a settlement with the National 
Park Service. The Merit Systems Protection Board noted that the 
superintendent was aware of the employee's allegations of 
procurement and misconduct, did nothing to address the issue 
and then failed to process an administrative request made by 
the whistleblower as a reprisal against her for contacting the 
inspector general.
    Additionally, based on our report, the Merit Systems 
Protection Board noted that the superintendent showed, quote, 
``a lack of candor,'' when responding to investigators and the 
highlighted action she took to obstruct the investigation. Yet 
we have no indication that National Park Service has taken any 
disciplinary action against her.
    Did you take any disciplinary action against her?
    Mr. Jarvis. I don't know.
    Chairman Chaffetz. How do you not know that? You know, Mr. 
Cummings is asking if you get it, if you're responding, if 
you're paying attention, if you're learning, if you're--you've 
got an outside inspector general who comes in and says, there's 
a problem here. There's a reprisal. And I tell you what, 
whistleblowers who step up and do the difficult thing of 
saying, hey, there's a problem here, we'll go to the mat for 
those people. And you know what, that happened in this case. 
And she's telling you that they had a lack of candor. They 
weren't candid about this, so much so that it cost the American 
taxpayers--I don't know how much we had to pay this person to 
get them right and whole, but that person still works there. 
Correct?
    Mr. Jarvis. Yes, sir.
    Chairman Chaffetz. And you didn't do anything about it. So 
why do we believe that you will actually do something in the 
future? We have multiple reports going to you. Years--those are 
years old. You purposefully, intentionally mislead the 
secretary. You've got IG reports that you don't respond to. You 
have more than a dozen--2 dozen sexual harassment cases. You 
say there's zero tolerance, but not one time did you recommend 
that somebody actually be fired. And guess what, nobody was 
fired.
    If you are going to--you've done a lot of good things in 
your service, I'm sure. But if you want a new direction, if you 
want there to be the type of Park Service that you claim that 
you want, it's going to require new leadership, and it isn't 
going to happen with you. You've had more than 7 years to get 
this right, and it's getting worse, not better.
    Only later do we actually see all these things percolate up 
to the top. But I've got to tell you, if we're going to do 
right by Federal employees, we're gonna have to have a 
different change, and we're gonna have to have a change. You 
say in your written testimony, the thing you gave us last 
night, you've got zero tolerance, and then you just told Mr. 
Cummings a few minutes ago, it's unbelievable to me that we've 
tolerated this for so long. It does no tolerance. Recommend 
these people be fired. Talk to the prosecutors so that there 
can be action. That's the kind of government that I want to 
see. That's what I think the employees of the Park Service, of 
which I've got two parks in my district, that's what they want 
to see. Because you know what, management is treated a whole 
lot different than that rank-and-file person, and that cannot 
stand. I think it's been deception. I don't think it's been a 
mistake.
    I yield back, and I recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Just one last thing.
    There were some ladies that were dancing, and they got 14 
days suspension. Is that right?
    Mr. Jarvis. That's correct.
    Mr. Cummings. Can you tell us about that a little bit?
    Mr. Jarvis. So the situation at the Grand Canyon, once the 
information about harassment on the River District was made 
aware to the management at the park level, this would be 
Superintendent Uberuaga and his deputy, they instituted some 
specific policies about behavior. They eliminated alcohol use 
on the river trips and they met with the river rangers and the 
staff as they went down the--before they went down the river 
and said, this kind of suggestive behavior, harassment, will 
not be tolerated. And then there was an incident on the river 
that involved a number of individuals, including the two women.
    So that's when the management at the park imposed a 
disciplinary action on the women. And, frankly, I think this 
was an enormous mistake. It was wrong.
    Mr. Cummings. And why do you say that?
    Mr. Jarvis. Well, zero tolerance is zero tolerance. It's 
not to be reinterpreted by the park superintendent in a way of 
setting new standards for behavior. It's--he did not take 
action on, when he was made aware, that this was going on in 
the park. He instituted a new set of policies to try to prevent 
it and it didn't prevent, and then he took action on the two 
women. They have filed EEO complaints with the National Park 
Service, which are being adjudicated----
    Mr. Cummings. You know, as I listen to you, you know, it 
comes back to some of the things the chairman has been saying. 
You know, I'm sitting here and I'm listening to you, and you 
told untrue statements to those above you and those looking 
into this, but yet, still, you're sitting there and you're 
talking all of this strong talk. But when it comes to you, it's 
a whole different thing. Why is that? Why should that be?
    Mr. Jarvis. I think I have been appropriately disciplined 
myself, and I have apologized for that.
    Mr. Cummings. Say that again.
    Mr. Jarvis. I said that in the--if I understand your 
question about holding myself accountable--is that the 
question?
    Mr. Cummings. Yeah. Yeah.
    Mr. Jarvis. I believe that for the ethics violation that I 
did in production of the book, I have been held accountable by 
the Department of the Interior, by my superiors. I have been--
--
    Mr. Cummings. Basically, you got a reprimand and told that 
you had to have some ethics training.
    Mr. Jarvis. That's correct.
    Mr. Cummings. And then the interesting thing was that you 
were an ethics officer, you told us, but you had to go back and 
get the ethics training.
    Mr. Jarvis. That's correct.
    Mr. Cummings. Last thing. Let me tell you something, one of 
the most important--and, Mr. Chairman, I think this is part of 
the problem. One of the most important things, one of them--you 
said many, Ms. Kendall, and it goes back to what you asked, Mr. 
Chairman. You said, Ms. Kendall, that the leadership tries to 
avoid, avoid, taking disciplinary actions altogether. That's--
I'm paraphrasing what you said. So are you capable of doing 
what the chairman asked, yeah, of taking appropriate 
disciplinary actions?
    Mr. Jarvis. Yes, I am.
    Mr. Cummings. All right. Thank you. I'm finished.
    Chairman Chaffetz. The committee stands adjourned.
    [Whereupon, at 12:26 p.m., the committee was adjourned.]






                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             

                                 [all]
</pre></body></html>
